No. 20In the

Supreme Court of the United States
ROLLINSNELSON LTC CORP., VICKI ROLLINS,
AND WILLIAM NELSON,
Petitioners,
v.
UNITED STATES OF AMERICA
EX REL. JANE WINTER, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI
Matthew D. Umhofer
Counsel of Record
Kevin J. Minnick
Spertus, Landes
& Umhofer, LLP
1990 South Bundy Drive,
Suite 705
Los Angeles, California 90025
(310) 826-4700
matthew@spertuslaw.com
Counsel for Petitioner
298930

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
This case turns on whether a Medicare reimbursement
claim for inpatient hospital care can be alleged “false”
under the False Claims Act (“FCA”) based solely on a
post hoc review of medical records that disagrees with
the admitting physician’s medical opinion. At issue here
are the clinical judgments of several physicians, each
expressing the view that inpatient hospital care was
reasonable and necessary for a particular Medicare
beneficiary. Medicare’s regulations directed those
physicians to apply indeterminate and purposefully vague
standards governing whether care was reimbursable.
Indeterminate standards give providers the flexibility
they need to supply covered healthcare to beneficiaries
who present with an infinite array of ailments. By their
nature, though, indeterminate standards are also subject
to differing opinions and medical judgments, which are
impossible in most circumstances to prove objectively
false.
Unfortunately, the lower courts have become
irreconcilably split as to whether the FCA’s falsity element
requires an objective falsehood, and therefore whether a
difference of opinion over medical judgments is actionable.
The decision below wrongly rejected the objective
falsehood requirement, deepening and worsening the split.
Healthcare professionals and Medicare providers deserve
a unified national standard for falsity under the FCA.
Thus, the question presented is: Whether the False
Claims Act requires pleading and proof of an objectively
false statement.

ii
PARTIES TO THE PROCEEDING
The following list identifies all parties appearing here
and in the United States Court of Appeals for the Ninth
Circuit. See Supreme Court Rule 14.1(b). The petitioners
here, and appellees below, are defendants RollinsNelson
LTC Corp., Vicki Rollins, and William Nelson. The
respondent here, and appellant below, is the United States
of America ex rel. Jane Winter, a qui tam relator. The
government has declined to intervene in this False Claims
Act case under 31 U.S.C. § 3730(b)(2).
The additional defendants named in the district
court, but who are not party to this petition, are Gardens
Regional Hospital and Medical Center, Inc., S&W Health
Management Services, Inc., Beryl Weiner, Prode Pascual,
Rafaelito Victoria, Arnold Ling, Cynthia Miller-Dobalian,
Edgardo Binoya, Namiko Nerio, and Manuel Sacapano.

iii
CORPORATE DISCLOSURE STATEMENT
Petitioner RollinsNelson LTC Corp. states under
Supreme Court Rule 29.6 that it has no corporate parent
and that no publicly held company owns ten percent or
more of its stock.

iv
RELATED PROCEEDINGS
• United States ex rel. Winter v. Gardens Reg’l Hosp.
& Med. Ctr., Inc., No. CV 14-08850-JFW, U.S.
District Court for the Central District of California.
Judgement date Dec. 29, 2017.
• Winter v. Gardens Reg’l Hosp. & Med. Ctr., No. 1855020, U.S. Court of Appeals for the Ninth Circuit.
Judgment entered Mar. 23, 2020.

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTIONAL STATEMENT . . . . . . . . . . . . . . . . 1
RELEVANT STATUTES AND REGULATIONS  . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
A. The Parties . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
B. Respondent’s False Claims Act Theory  . . . . . . . 3
C. The District Court’s Dismissal . . . . . . . . . . . . . . . 5

vi
Table of Contents
Page
D. The Ninth Circuit’s Reversal . . . . . . . . . . . . . . . . 7
REASONS FOR GRANTING THE PETITION . . . . 10
I.

The Decision Below Deepens and Worsens a
Recent Circuit Split . . . . . . . . . . . . . . . . . . . . . . . 11

II. This Dispute Is An Opportune Case For
Resolving This Exceptionally Important
Question . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

vii
TABLE OF APPENDICES
Page
A ppendix A — opinion of the
UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT,
FILED MARCH 23, 2020  . . . . . . . . . . . . . . . . . . . . . 1a
Appendix B — opinion of the UNITED
STATES DISTRICT COURT FOR THE
CENTRAL DISTRICT OF CALIFORNIA,
FILED December 29, 2017 . . . . . . . . . . . . . . . . .28a
A P P E N DI X C — O R D E R D E N Y I N G
REHEARING of THE UNITED STATES
COURT OF APPEALS FOR THE NINTH
CIRCUIT, FILED JULY 6, 2020 . . . . . . . . . . . . . . 52a
A ppendix D — S T A T U T E S A N D
REGULATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54a

viii
TABLE OF CITED AUTHORITIES
Page
CASES
Azar v. Allina Health Servs.,
139 S. Ct. 1804 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . 21
Cafasso v. Gen. Dynamics C4 Sys., Inc.,
637 F.3d 1047 (9th Cir. 2011)  . . . . . . . . . . . . . . . . . . . 16
Hagood v. Sonoma Cty. Water Agency,
81 F.3d 1465 (9th Cir. 1996) . . . . . . . . . . . . . . . . passim
Hagood v. Sonoma Cty. Water Agency,
302 F.3d 637 (6th Cir. 2002) . . . . . . . . . . . . . . . . . . . . 14
United States ex rel. Berg v.
Honeywell Int’l, Inc.,
740 F. App’x 535 (9th Cir. 2018), cert. denied,
139 S. Ct. 1456 (2019)  . . . . . . . . . . . . . . . . . . . . . 6, 8, 15
United States ex rel. Clausen v.
Lab. Corp. of Am.,
290 F.3d 1301 (11th Cir. 2002) . . . . . . . . . . . . . . . . . . 16
United States ex rel. Druding v.
Care Alternatives,
952 F.3d 89 (3d Cir. 2020) . . . . . . . . . . . . . . . . . . passim
United States ex rel. Englund v.
Los Angeles County,
No. CIV. S-04-282 LKKJFM, 2006 WL 3097941
(E.D. Cal. Oct. 31, 2006) . . . . . . . . . . . . . . . . . . . . . . . . 6

ix
Cited Authorities
Page
United States ex rel. Polukoff v.
St. Mark’s Hospital,
895 F.3d 730 (10th Cir. 2018) . . . . . . . . . . . . . . . . .  9, 14
United States ex rel. Presser v.
Acacia Mental Health Clinic, LLC,
836 F.3d 770 (7th Cir. 2016) . . . . . . . . . . . . . . . . . . . . 13
United States ex rel. Riley v.
St. Luke’s Episcopal Hospital,
355 F.3d 370 (5th Cir. 2004) . . . . . . . . . . . . . . . . . . . . 15
United States ex rel. Roby v. Boeing Co.,
100 F. Supp. 2d 619 (S.D. Ohio 2000) . . . . . . . . . . . . . 14
United States ex rel. Wilson v.
Kellogg Brown & Root, Inc.,
525 F.3d 370 (4th Cir. 2008) . . . . . . . . . . . . . . . . . 12, 15
United States ex rel. Yannacopoulos v.
Gen. Dynamics,
652 F.3d 818 (7th Cir. 2011)  . . . . . . . . . . . . . . . . . . . . 13
United States v. AseraCare, Inc.,
176 F. Supp. 3d 1282 (N.D. Ala. 2016) . . . . . . . . . . . . 14
United States v. AseraCare, Inc.,
938 F.3d 1278 (11th Cir. 2019)  . . . . . . . . . . . . . . passim
United States v. Paulus,
894 F.3d 267 (6th Cir. 2018) . . . . . . . . . . . . . . . . . . . . 14

x
Cited Authorities
Page
United States v. Prabhu,
442 F. Supp. 2d 1008 (D. Nev. 2006) . . . . . . . . . . . . . . 6
Universal Health Services, Inc. v.
United States ex rel. Escobar,
136 S. Ct. 1989 (2016)  . . . . . . . . . . . . . . . . . . . 3, 7, 8, 21
STATUTES
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
31 U.S.C. § 3729(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
31 U.S.C. § 3729(a)(1)(A)  . . . . . . . . . . . . . . . . . . . . . . . . . . 3
31 U.S.C. § 3729(a)(1)(B)  . . . . . . . . . . . . . . . . . . . . . . . . . . 3
31 U.S.C. § 3729(a)(1)(C)  . . . . . . . . . . . . . . . . . . . . . . . . . . 3
31 U.S.C. § 3730(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
31 U.S.C. § 3730(h) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
42 U.S.C. § 1395y  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 1395y(a)(1)(A)  . . . . . . . . . . . . . . . . . . . . . . . . . 3

xi
Cited Authorities
Page
REGULATIONS
42 C.F.R. § 412.3(d)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 C.F.R. § 412.3(d)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . 4, 18
42 C.F.R. § 412.3(d)(1)(i) . . . . . . . . . . . . . . . . . . . . . . . .4, 19
42 C.F.R. § 412.3(d)(3)  . . . . . . . . . . . . . . . . . . . . . . . . . 4, 18
42 C.F.R. § 418.22(b)(2) . . . . . . . . . . . . . . . . . . . . . . . . . .  17

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners RollinsNelson LTC Corp., Vicki Rollins,
and William Nelson respectfully petition this Court for
a writ of certiorari to review the decision of the United
States Court of Appeal for the Ninth Circuit in this case.
OPINIONS BELOW
The decision of the court of appeals is published as
Winter v. Gardens Reg’l Hosp. & Med. Ctr., 953 F.3d
1108, 1113 (9th Cir. 2020), and is reprinted at Pet. App.
1a. The order of the court of appeals denying rehearing
and rehearing en banc is reprinted at Pet. App. 52a.
The district court’s unpublished opinion dismissing
respondent’s complaint is available on Westlaw at United
States ex rel. Winter v. Gardens Reg’l Hosp. & Med. Ctr.,
Inc., No. CV 14-08850-JFW (Ex), 2017 WL 8793222, at *1
(C.D. Cal. Dec. 29, 2017), and is reprinted at Pet. App. 28a.
JURISDICTIONAL STATEMENT
The United States Court of Appeals for the Ninth
Circuit entered its opinion and judgment on March 23,
2020. Petitioner filed a petition for rehearing and for
rehearing en banc on April 6, 2020, which the court of
appeals denied on July 15, 2020. On March 19, 2020, this
Court ordered that “the deadline to file any petition for
a writ of certiorari due on or after the date of this order
is extended to 150 days from the date of the lower court
judgment, order denying discretionary review, or order
denying a timely petition for rehearing.” (Order of Mar.
19, 2020.) This Court has jurisdiction under 28 U.S.C.
§ 1254(1).

2
RELEVANT STATUTES AND REGULATIONS
The relevant provisions of 31 U.S.C. § 3729(a)(1), 42
U.S.C. § 1395y, and 42 C.F.R. § 412.3(d) are reprinted at
Pet. App. 54a-55a, 60a-127a, and 128a-130a respectively.
STATEMENT OF THE CASE
A. The Parties
Petitioners owned fifty percent of the hospital
management company that oversaw operations at Gardens
Regional Hospital and Medical Center, Inc., otherwise
known as Tri-City Regional Medical Center (“Tri-City”).
Pet. App. 9a. Tri-City, now bankrupt, is a non-profit, acute
care hospital with inpatient and outpatient services. Pet.
App. 30a. The other defendants named in the district
court, who are not petitioners here, are the other owners of
the hospital management company and several attending
physicians with admitting privileges at Tri-City. Id.
Respondent Jane Winter is a registered nurse who
began working in the Tri-City emergency room on August
11, 2014. Her employment was terminated on November 6,
2014. Respondent filed her False Claims Act lawsuit under
seal on November 14, 2014 in the United States District
Court for the Central District of California, invoking the
statute’s qui tam provisions, 31 U.S.C. § 3730(b), which
allow private plaintiffs to sue on behalf of the government
under certain circumstances and to keep a share of the
proceeds if successful. Pet. App. 36a. After conducting a
“thorough investigation” of the allegations in the sealed
complaint, the government declined to intervene on March
16, 2017. Pet. App. 37a.

3
B. Respondent’s False Claims Act Theory
The FCA’s remedies, which include treble damages
and per-violation civil penalties, are “essentially punitive
in nature.” Universal Health Servs., 136 S. Ct. at 1996
(citation omitted). Those steep remedies attach to any
person who knowingly presents or causes to be presented
a false claim for payment or anyone who knowingly makes,
uses, or causes to be made or used, a false record or
statement material to a false claim. 31 U.S.C. §§ 3729(a)
(1)(A)-(B). The FCA also provides for conspiracy liability.
31 U.S.C. § 3729(a)(1)(C). Respondent alleged all of those
theories here.
Respondent’s allegations are about Medicare’s
reimbursement requirement for inpatient hospital
treatment. Medicare generally reimburses inpatient care
at higher amounts than outpatient care. The operative
pleading (Respondent’s Second Amended Complaint)
alleges that Petitioners submitted false claims, or caused
them to be submitted, by certifying the medical necessity
of inpatient hospital admissions at Tri-City. Respondent
identified approximately 65 such claims. Pet. App. 10a.
There is no allegation that Petitioners or Tri-City failed
to actually deliver inpatient care. Respondent argues only
that the treatment was not reimbursable. Id.
The applicable statutory scheme requires that
inpatient admissions be “reasonable and necessary for
the diagnosis or treatment of illness or injury or to
improve the functioning of a malformed body member[.]”
42 U.S.C. § 1395y(a)(1)(A). Regulations further provide
that inpatient treatment “is generally appropriate for
payment under Medicare Part A when the admitting

4
physician expects the patient to require hospital care
that crosses two midnights,” or if other circumstances
requiring inpatient care are “supported by the medical
record.” 42 C.F.R. § 412.3(d)(1), (3) (emphasis added); Pet.
App. 60a and 128a-130a.
This regulatory requirement is sometimes called
the “two-midnight rule.” See Pet. App. 35a. To guide the
admitting physician in developing his or her “expectation”
in relation to the two-midnight rule, the regulation
provides this, and only this:
The expectation of the physician should be
based on such complex medical factors as
patient history and comorbidities, the severity
of signs and symptoms, current medical needs,
and the risk of an adverse event. The factors
that lead to a particular clinical expectation
must be documented in the medical record in
order to be granted consideration.
42 C.F.R. § 412.3(d)(1)(i) (emphasis added). Importantly,
these regulations do not require the physician to amass
a medical record that proves the patient will require care
spanning two midnights. It is enough for the physician
to develop an expectation based on complex medical
factors documented in the patient’s record. Put simply,
the framework asks for an informed clinical opinion, not
a certification of objective fact.
Respondent alleged that Tri-City physicians certified
the necessity of all the relevant inpatient admissions,
whereas her own after-the-fact review of patient
records yielded a different conclusion. (Pet. App. 31a.)

5
Respondent’s review allegedly concluded that each
admission was medically unnecessary, resulting in false
claims to Medicare under an “implied false certification”
theory. Pet. App. 40a. But she made that determination not
by independently applying her understanding of “complex
medical factors” or the two-midnight rule. Id.
Instead, Respondent “observed that Defendants . . .
admitted or caused to be admitted a significant number
of patients from skilled nursing facilities owned by
[Respondents] that did not meet inpatient hospital
admission criteria, as objectively determined with the
applicable InterQual criteria—criteria that CMS uses
when auditing or inspecting hospitals.” (Respondent’s
Second Amended Complaint ¶ 56 (emphasis added).)1
The “InterQual Criteria” are published by a third party,
McKesson Health Solutions, LLC, and are not promulgated
or formally adopted by any Medicare authority. Pet. App.
31a. Nevertheless, Respondent asserts that claims for
payment are false if the underlying hospital admission
diverges from the InterQual criteria, as she applied them
during her review of the cold files. Pet. App. 32a.
C. The District Court’s Dismissal
Petitioners and other defendants moved to dismiss
on the grounds that (a) Respondent had not alleged an
objectively false claim for payment and (b) the allegedly
false certifications were not material to the government’s
payment decision as a matter of law. Pet. App. 41a. The
district court granted the motions in their entirety. Id.
1. CMS refers to the Centers for Medicare and Medicaid
Services, the subdivision of the Department of Health and Human
Services that administers Medicare. Pet. App. 6a.

6
First, as the district court accurately acknowledged,
Respondent’s “contention that the medical provider’s
certifications were false is based on her own after-thefact review of Tri-City’s admission records.” Id. The
district court applied the Ninth Circuit’s holding in
Hagood v. Sonoma Cty. Water Agency, 81 F.3d 1465,
1477-78 (9th Cir. 1996), to this contention and found
Respondent’s allegations insufficient. Like many courts
before it, the district court read Hagood to require a
plaintiff to allege “that a defendant knowingly made
an objectively false representation to the Government
that caused the Government to remit payment.” Pet.
App. 42a. 2 Respondent’s allegations, however, identified
at most a “difference of opinion.” Id. The mere “fact
that [Respondent] reached a different conclusion on the
issue of medical necessity does not render the provider’s
certification false.” Id. Instead, the district court
concluded that Respondent’s allegations were “based on
2. District courts in the Ninth Circuit, and even the Ninth
Circuit itself, had routinely interpreted Hagood as requiring an
objectively false statement for FCA liability to attach. See, e.g.,
United States ex rel. Berg v. Honeywell Int’l, Inc., 740 F. App’x 535,
537 (9th Cir. 2018), cert. denied 139 S. Ct. 1456 (2019). (affirming
summary judgment in defendant’s favor because “[t]he scope of
Honeywell’s statements and the qualifications upon them were
sufficiently clear, so that the statements—so qualified—were not
objectively false or fraudulent.”) (emphasis added); United States v.
Prabhu, 442 F. Supp. 2d 1008, 1032-33 (D. Nev. 2006) (“[P]laintiff
must demonstrate that an objective gap exists between what the
Defendant represented and what the Defendant would have stated
had the Defendant told the truth”); United States ex rel. Englund
v. Los Angeles County, No. CIV. S-04-282 LKKJFM, 2006 WL
3097941, at *10 (E.D. Cal. Oct. 31, 2006) (“It is well established
in this Circuit and elsewhere that imprecise statements or
differences in interpretation growing out of a disputed legal
question are not false under the FCA.”).

7
subjective medical opinions that cannot be proven to be
objectively false.” Id.
Respondent’s reliance on the InterQual criteria could
not satisfy the objective falsehood requirement either. The
district court explained that the private InterQual criteria
are not Medicare’s interpretation of the ultimate payment
standard. Rather, they purport to be a “collection of data”
that “represent a consensus of medical opinions.” Id.
Respondent’s reliance on such a collection of third-party
medical opinions, even if they proved to disagree with TriCity’s admission decisions, could “not demonstrate that the
providers’ certifications that the admissions and relevant
services were medically necessary were objectively false.”
Id. Put differently, InterQual’s compendium of opinions,
even if in Respondent’s favor, still established only a
difference of opinion, not any objectively false statement.
Second, the district court applied this Court’s holding
in Universal Health Services., Inc. v. United States ex
rel. Escobar, 136 S. Ct. 1989, 2001 (2016), and found the
allegedly false certifications immaterial as a matter of law.
The district court therefore dismissed Respondent’s
FCA allegations, including her claim that Respondents
conspired to violate the FCA, without leave to amend.
Pet. App. 44a. Although Respondent’s claim for retaliation
under 31 U.S.C. § 3730(h) survived the motion, Respondent
voluntarily dismissed that claim to enable her appeal to
the Ninth Circuit. Pet. App. 12a n.6.
D. The Ninth Circuit’s Reversal
The court of appeals held that the FCA does not
require a plaintiff to plead an objective falsehood and that

8
implied certifications of medical necessity are material
because they are a condition of payment. Pet. App. 19a.
First, the court of appeals held that “the FCA
imposes liability for all ‘false or fraudulent claims’—it
does not distinguish between ‘objective’ and ‘subjective’
falsity or carve out an exception for clinical judgments
and opinions.” Pet. App. 15a. Remarkably, the court of
appeals failed even to mention its Hagood decision, which
the district court correctly cited as requiring an objective
falsehood. 3 Hagood had since 1996 directed the many
lower courts of the Ninth Circuit that reasonable disputes
about the application of indeterminate legal standards are
not “false” in the sense intended by the FCA, even if the
defendant’s application is later seen as reaching the wrong
result. Hagood, 81 F.3d at 1477; Berg, 740 F. App’x at 537.
The court of appeals departed from that established rule
without a direct explanation.
The court of appeals also acknowledged the obvious
concerns about rampant liability for honestly held medical
judgments, and struggled to meet those concerns by
pivoting to other elements. Any concerns about openended liability attaching to the difficult application of
indeterminate hospital admission standards should be
addressed using the materiality and scienter elements
under Universal Health Services, 136 S. Ct. at 2001, not
by distinguishing between objectively false certifications
and mere differences in medical judgments, the court of
appeals held. Pet. App. 15a.
3. Petitioners raised this irregularity in their petition for
rehearing en banc, but the court of appeals declined to amend its
opinion. Pet. App. 53a.

9
In other words, an alleged disagreement with a
doctor’s clinical judgment to admit a Medicare beneficiary
for inpatient care satisfies the FCA’s falsity element, and
leaves the parties to litigate scienter and materiality. Thus,
Respondent had stated an FCA claim by her allegation
that Tri-City’s admissions failed to satisfy the admission
criteria as applied by Respondent, an ER nurse, despite
the physicians’ judgments to the contrary. Pet. App. 21a.
The court of appeals also expressly joined the Third
and Tenth Circuits in “rejecting the ‘bright-line rule
that a doctor’s clinical judgment cannot be ‘false’” in the
sense intended by the FCA. Pet. App. 17a (citing United
States ex rel. Druding v. Care Alternatives, 952 F.3d at
89, 100 (3d Cir. 2020) and United States ex rel. Polukoff
v. St. Mark’s Hospital, 895 F.3d 730, 742 (10th Cir. 2018)).
In doing so, the court of appeals questioned the Eleventh
Circuit’s holding that “‘a claim that certifies that a patient
is terminally ill . . . cannot be “false”—and thus cannot
trigger FCA liability—if the underlying clinical judgment
does not reflect an objective falsehood,’” but suggested
that the Eleventh Circuit rule may not ultimately be
inconsistent with its holding. Pet. App. 17a (quoting United
States v. AseraCare, Inc., 938 F.3d 1278, 1296-97 (11th
Cir. 2019).4
Second, although not relevant to this Petition, the
court of appeals also held that “a false certification
of medical necessity can be material.” Pet. App. 24a.
Petitioner sought rehearing and rehearing en banc, which
the court of appeals denied. Pet. App. 53a.
4. As explained in further detail below, the court of appeals’
attempt to harmonize its reversal with the Eleventh Circuit’s
AseraCare holding is not persuasive.

10
REASONS FOR GRANTING THE PETITION
The decision below joined the wrong side of a
deepening circuit split. The Eleventh Circuit recently
affirmed that the FCA’s falsity element requires an
objectively false statement, following the Fourth and
Seventh Circuits. Shortly after the Eleventh Circuit
ruled, the Third Circuit rejected the objective falsehood
requirement on facts indistinguishable from that Eleventh
Circuit case, expressly acknowledging that it was creating
a split of authority. The Tenth Circuit appears to agree
with the Third Circuit, but the Fifth and Sixth Circuits
have articulated holdings so unclear that they are cited
by both sides of the split.
The decision below exacerbates this confusion by
joining the Third Circuit in rejecting the objective
falsehood requirement—despite Ninth Circuit precedent
that has been cited for decades as supporting the
objective falsehood requirement. Still more confusing,
the court of appeals tried unconvincingly to harmonize
its holding with the Eleventh Circuit’s affirmation of the
objective falsehood requirement, muddying the waters
by suggesting there is no circuit split after all. Only
this Court’s intervention can reconcile this morass of
conflicting standards.
This dispute also presents the right vessel for
resolving the split. Respondent’s FCA theory depends
on an alleged difference of opinion: Tri-City’s physicians
versus Respondent and her post hoc application of the
medical opinions memorialized in the InterQual criteria.
The resolution of the split is therefore key to correct
resolution of this case, and a reversal of the decision below

11
would dispose of Respondent’s FCA allegations entirely.
More broadly, the question presented is exceptionally
important, and it merits immediate review, without
awaiting yet another circuit court to further destabilize
the law without any hope of resolving the irreconcilable
positions of the courts of appeals already on record.
Medicare payment rules, even the purposefully vague
ones, apply nationally, and the FCA’s punitive remedies
weigh heavily on practitioners and providers. A uniform,
national answer to whether the FCA penalizes differences
in medical judgment is sorely needed.
The question presented here is also closely related
to the pending Petition for a Writ of Certiorari filed in
Care Alternatives v. United States ex rel. Druding, No.
20-371. The Third Circuit’s holding in Care Alternatives
is at the core of the circuit split identified in this Petition,
and the Care Alternatives petition cites the Ninth
Circuit’s decision below as evidence that “the courts of
appeal are in open disarray over when opinions, such as
a physician’s clinical judgment about life expectancy or
the necessity of treatment, can be deemed ‘false’ under
the FCA.” Care Alternatives Pet. at 21. Accordingly,
Petitioners respectfully submit that, to the extent the Care
Alternatives petition is granted, this Petition be granted
along with it to resolve the related questions together.
I.

The Decision Below Deepens and Worsens a Recent
Circuit Split.

A. The lower courts have become irreconcilably
split as to whether the FCA’s falsity element requires an
objective falsehood, and therefore whether a difference
of opinion over medical judgments is actionable. On the

12
correct side of the split is the Eleventh Circuit’s AseraCare
decision. 938 F.3d 1278 (11th Cir. 2019). In AseraCare,
the government challenged a hospice facility’s claims for
Medicare reimbursement for end-of-life hospice care. The
facility’s medical professionals had determined in their
judgment that particular patients were “terminally ill,”
which is the prerequisite for triggering Medicare coverage
in that context. Id. at 1289. The government alleged that
these certifications were false because they were made
“on the basis of erroneous clinical judgments that those
patients were terminally ill.” Id. at 1281 (emphasis added).
A battle of the experts ensued, in which the government’s
medical expert testified after reviewing the cold patient
records that “in his opinion, the patients were not
terminally ill.” Id. at 1287.
Importantly, the Eleventh Circuit acknowledged
that a physician’s terminal illness diagnosis is, at root, a
statement of his or her medical opinion, not an assertion
of fact. Id. at 1296-97. Such a medical opinion “cannot
be ‘false’—and thus cannot trigger FCA liability—if the
underlying clinical judgment does not reflect an objective
falsehood.” Id. (emphasis added). As a result, “a reasonable
difference of opinion among physicians reviewing medical
documentation ex post is not sufficient on its own to
suggest that those judgments—or any claims based on
them—are false under the FCA.” Id. at 1297.
The Eleventh Circuit agrees with the Fourth and
Seventh Circuits. The Fourth Circuit has long held the
FCA’s falsity element to require objective falsehood.
United States ex rel. Wilson v. Kellogg Brown & Root,
Inc., 525 F.3d 370, 376 (4th Cir. 2008) (“To satisfy this first
element of an FCA claim, the statement or conduct alleged

13
must represent an objective falsehood.”). The Seventh
Circuit also requires an objective falsehood and therefore
rejects allegations that turn only on differences between
the judgment of the qui tam relator and the defendant.
United States ex rel. Yannacopoulos v. Gen. Dynamics,
652 F.3d 818, 836 (7th Cir. 2011) (“A statement may be
deemed ‘false’ for purposes of the False Claims Act only
if the statement represents ‘an objective falsehood.’”)
(citation omitted); United States ex rel. Presser v. Acacia
Mental Health Clinic, LLC, 836 F.3d 770, 780 (7th Cir.
2016) (“Many potential relators could claim that ‘in my
experience, this is not the way things are done.’ . . . Ms.
Presser’s subjective evaluation, standing alone, is not a
sufficient basis for a fraud claim.”) (emphasis added).
On the other side of the split is the Third Circuit’s Care
Alternatives holding, for which a petition for certiorari
is pending. The Care Alternatives case presented the
same facts as the Eleventh Circuit’s AseraCare case, i.e.,
a hospice facility whose doctors had diagnosed terminal
illnesses and a battle of the experts as to whether those
certifications were in error. 952 F.3d at 94. But the Third
Circuit expressly rejected any requirement for “objective
falsity.” Id. at 96. Notably, the Third Circuit did not hold
that a physician’s terminal illness diagnosis constituted a
statement of fact. Instead, it held that “medical opinions
may be ‘false’ and an expert’s testimony challenging a
physician’s medical opinion can be appropriate evidence
for the jury to consider on the question of falsity.” Id. at
98. Parting with the Eleventh Circuit (and with the Fourth
and Seventh, albeit silently) the Third Circuit concluded
that a “difference of medical opinion is enough evidence
to create a triable dispute of fact regarding FCA falsity.”
Id. at 100.

14
The Third Circuit cited the Tenth Circuit’s holding in
United States ex rel. Polukoff v. St. Mark’s Hospital, 895
F.3d 730 (10th Cir. 2018), with approval. That case, like the
decision below, addressed a medical opinion that services
were “reasonable and necessary.” The Tenth Circuit held
that “a doctor’s certification to the government that a
procedure is ‘reasonable and necessary’ is ‘false’ under the
FCA if the procedure was not reasonable and necessary
under the government’s definition of the phrase.” Id. at
743. Both the third Circuit and the decision below cited
Polukoff as authority for rejecting the objective falsehood
requirement.
The Fifth and Sixth Circuits have not taken clear
positions on the objective falsehood requirement, adding
to the confusion in the lower courts. For instance, although
both the decision below and the Third Circuit cited United
States v. Paulus, 894 F.3d 267, 275-76 (6th Cir. 2018)), as
rejecting the objective falsehood requirement, the Sixth
Circuit actually held that “certain good-faith medical
diagnoses by a doctor cannot be false,” citing the district
court’s order from the AseraCare case. See Paulus, 894
F.3d at 275 (citing United States v. AseraCare, Inc., 176 F.
Supp. 3d 1282 (N.D. Ala. 2016)). And in a published order
affirmed by the Sixth Circuit, a district court ruled that,
“[a]t a minimum, the FCA requires proof of an objective
falsehood. Expressions of opinion, scientific judgments,
or statements as to conclusions about which reasonable
minds may differ cannot be false.” United States ex rel.
Roby v. Boeing Co., 100 F. Supp. 2d 619, 625 (S.D. Ohio
2000) (emphasis added) (citing Hagood, 81 F.3d at 1477-78),
aff’d, 302 F.3d 637 (6th Cir. 2002).
Similarly, the Fifth Circuit’s most relevant precedent
appears to straddle the divide between the AseraCare and

15
Care Alternatives holdings. In United States ex rel. Riley
v. St. Luke’s Episcopal Hospital, 355 F.3d 370, 376 (5th
Cir. 2004), the Fifth Circuit “agree[d] in principle” that
“expressions of opinion or scientific judgments about which
reasonable minds may differ cannot be ‘false,’” under
the FCA. Id. But, the Fifth Circuit went on to hold that
certifications of “medical necessity” can be false if they
are “a lie,” but not if they are “an error,” a holding that
would appear to conflate falsity with scienter. The Fifth
Circuit’s position is so unclear that the decision below in
this case cited Riley as supporting the Third Circuit’s side
of the split, Pet. App. 17a, whereas the Third Circuit itself
actually chastised its district court for relying on Riley,
see Care Alternatives, 952 F.3d at 94 (characterizing the
Fifth Circuit standard as “not previously embraced or
established by this Court”).
This confusion pervades the Ninth Circuit’s precedent,
too. Right up until it issued the decision below, the Ninth
Circuit also required allegations of objective falsity. In
Hagood, a contracting case, the plaintiff’s evidence proved
that a cost allocation submitted to the government was
neither current nor accurate, but given the “fairly wide
discretion” granted under the relevant statute, it was not
“false within the meaning of the False Claims Act.” Hagood,
81 F.3d at 1477 (emphasis in original). Several courts
correctly understood that holding as requiring an objectively
false statement because subjective disagreements about the
application of imprecise legal standards did not carry the
day in Hagood. See Berg, 740 F. App’x at 537; supra n.2.
In fact, the Fourth Circuit’s articulation of the objective
falsehood requirement cites Hagood for the proposition
that “differences in interpretation growing out of a disputed
legal question are . . . not false under the FCA.” Wilson,
525 F.3d at 377 (citations omitted).

16
There is broad agreement among the lower courts
that the falsity element is the “sine qua non” of the FCA.
See, e.g., Cafasso v. Gen. Dynamics C4 Sys., Inc., 637 F.3d
1047, 1055 (9th Cir. 2011) (quoting United States ex rel.
Clausen v. Lab. Corp. of Am., 290 F.3d 1301, 1311 (11th
Cir. 2002)). There is, however, complete disarray among
the lower courts as to what the element requires.
B. The court of appeals’ decision below made this
circuit split worse, not better. In the first place, by joining
the Third Circuit without expressly overruling its Hagood
decision, the Ninth Circuit switched sides. This rendered
uncertain the 24 years of cases decided under Hagood
in the largest of the courts of appeals, a particularly
destabilizing move given that the Ninth Circuit’s Hagood
holding also formed part of the basis of the objective
falsehood requirement in at least the Fourth Circuit, as
noted above.
Worse yet, the decision below held—despite its
rejection of the objective falsehood requirement—that the
“Eleventh Circuit’s recent decision in [AseraCare] is not
directly to the contrary.” Pet. App. 17a (emphasis added).
In stark contrast, the Third Circuit acknowledged that it
was “departing from [its] sister circuit,” by “disagree[ing]”
with AseraCare. Care Alternatives, 952 F.3d at 99, 100. To
put it somewhat differently, the decision below seemingly
creates a circuit split about whether there even is a circuit
split. If this circumstance is allowed to persist, the district
courts will be justifiably adrift in any effort to apply the
ruling below.
In any event, the court of appeals’ attempts to
harmonize its holding with AseraCare do not hold up

17
to scrutiny. First, the court of appeals observed that,
because the Eleventh Circuit listed some ways a clinical
judgment could be false—i.e., if the doctor does not
actually hold the opinion or relies on facts known to
be incorrect—AseraCare must not actually demand an
objective falsehood in every case. This, as the decision
below acknowledged, is not consistent with the Eleventh
Circuit’s “language about ‘objective falsehoods.’” Pet.
App. 18a.
Second, the Eleventh Circuit identified the ultimate
certification of medical necessity—i.e., the ultimate
payment standard that Respondent alleges in this case—
as a backstop against impunity for false certifications
to Medicare. AseraCare might therefore be read to
agree that the “‘objective falsehood’ requirement did not
necessarily apply to a physician’s certification of medical
necessity.” Id. (citation omitted). On closer examination,
this, too, is difficult to square with the rest of AseraCare.
For instance, the Eleventh Circuit parsed the Medicare
regulations as follows: “The relevant regulation requires
only that ‘clinical information and other documentation
that support the medical prognosis . . . accompany the
certification’ and ‘be filed in the medical record.’” 938
F.3d at 1294 (emphasis in opinion) (quoting 42 C.F.R.
§ 418.22(b)(2)). The Eleventh Circuit further explained,
by way of rejecting the government’s argument that the
documentation requirement supplied an objective test for
hospice care eligibility:
had Congress or CMS intended the patient’s
medical records to objectively demonstrate
terminal illness, it could have said so. Yet,

18
Congress said nothing to indicate that the
medical documentation presented with a claim
must prove the veracity of the clinical judgment
on an after-the-fact review. And CMS’s own
choice of the word “support”—instead of, for
example, “demonstrate” or “prove”—does not
imply the level of certitude the Government
wishes to attribute to it.
AseraCare, 938 F.3d at 1294.
This analysis applies perforce to the inpatient
admission criteria at issue here. Just as in AseraCare, the
regulation here requires only that inpatient admission be
“supported by the medical record,” even for admissions
that fall short of the two-midnight rule, showing the
absence of an objective criterion. See 42 C.F.R. § 412.3(d)
(1), (3). Focusing on the more specific CMS regulation
instead of the ultimate “reasonable and necessary”
requirement drives a further wedge between the decision
below and AseraCare.
In the end, the existence of this circuit split cannot
be reasonably denied. The Eleventh Circuit “affirmed . . .
the ‘objective’ falsity test” that the decision below and the
Third Circuit expressly rejected. Care Alternatives, 952
F.3d at 99. The court of appeals’ attempt to reconcile these
divergent cases only fuels the confusion in the lower courts
by suggesting that two irreconcilable lines of cases (to
say nothing of the less clear decisions from the Fifth and
Sixth Circuits) can be somehow harmonized on grounds
that do not hold up to scrutiny. This stark conflict and
deep confusion among the lower courts warrants this
Court’s review.

19
II. This Dispute Is An Opportune Case For Resolving
This Exceptionally Important Question.
This case presents a timely opportunity to resolve
the otherwise intractable circuit split over the objective
falsehood requirement. Indeed, resolution of the split is
both vitally important to ensuring the correct result in
this case and to guiding countless medical professionals
in their hospital admission decisions.
A. Resolving the circuit split correctly would
completely dispose of this case. Respondent’s falsity
allegations depend on whether the physicians who worked
at Tri-City “falsely” determined that inpatient care was
reasonable and necessary for treating each Medicare
beneficiary. But rather than specifically define which
medical conditions warrant inpatient care, CMS elected to
empower physicians, in the first instance, to make hospital
admission decisions. Physicians are advised by regulation
to develop an “expectation” as to whether the patient’s
care will span two midnights under the two-midnight rule.
Doctors are further entrusted to base their expectation
on “such complex medical factors as patient history and
comorbidities, the severity of signs and symptoms, current
medical needs, and the risk of an adverse event.” 42 C.F.R.
§ 412.3(d)(1)(i).
Accordingly, Respondent’s falsity allegations are not
testable by reference to any objective standard. Tri-City
physicians expressed an opinion that patients would
require inpatient care based on their understanding
of complex medical factors; Respondent holds another
conclusion based on her after-the-fact review of paperwork.
Pet. App. 42a. That difference of opinion forms the basis

20
of her allegation that Tri-City’s inpatient care was not
reasonable and necessary and therefore that Petitioners
submitted false claims for reimbursement of that care.
Pet. App. 42a-43a.
This difference of opinion led the district court to
find no objective basis for determining whether the
physicians’ judgments were “false.” Pet. App. 43a. The
court of appeals did not hold that Respondent would have
satisfied objective falsity; instead, it excused Respondent
from her burden to even plead an objectively false
claim and expressly credited Respondent’s reliance on
other “medical professionals’ opinions” in the form of
the InterQual criteria. Pet. App. 21a (emphasis added).
Thus, if this case had arisen in the Fourth, Seventh, or
Eleventh Circuits, the district court’s dismissal would
have been affirmed. The court of appeals’ decision to
depart from the objective falsehood requirement is what
saved Respondent’s case.
This dispute therefore cleanly tees up the split: If
the Eleventh Circuit (and the district court below) is
correct, then Respondent states no claim because the
differences of opinion she identified cannot be objectively
false under the FCA. If, however, the Third Circuit (and
the court of appeals below) is correct, then Respondent’s
case will move forward with the law accurately framed for
summary judgment. And if the Fifth or the Sixth Circuits
have the better position by straddling the two extremes,
correcting the law now may prevent further appeals in
this case and many others.
The disagreement among the circuits here is stark,
and it is not going to improve without this Court’s

21
intervention. Despite the court of appeals’ attempt to
harmonize the cases, the lower courts simply diverge on
whether an objective falsehood is required by the FCA.
B. The question presented here is also exceptionally
important. Medicare regulations are rules of national
application that directly affect how beneficiaries receive
care and healthcare workers make a living. See Azar v.
Allina Health Servs., 139 S. Ct. 1804, 1808 (2019) (“One
way or another, Medicare touches the lives of nearly all
Americans.”). Their enforcement through the FCA also
affects livelihoods and liberties. See Universal Health
Servs., 136 S. Ct. at 1996 (“Congress also has increased
the Act’s civil penalties so that liability is ‘essentially
punitive in nature.’ Defendants are subjected to treble
damages plus civil penalties of up to $10,000 per false
claim.”) (citation omitted).
Meanwhile, this is a time of unprecedented stress
on our healthcare system. Inpatient hospital admission
decisions are today as fraught as they perhaps ever will
be, and hospital staff are being pushed to their limits.
The court of appeals’ holding will further burden medical
professionals who need to make real-time decisions without
worrying about crippling financial liability brought about
by a disgruntled colleague who disagrees with their
medical judgments post hoc. Stripping away the objective
falsehood requirement and depleting the FCA’s falsity bar
to the level of disagreements over indeterminate legal
standards—contrary to at least three other circuits—was
a weighty imposition on the healthcare industry working
within the Ninth Circuit. It deserves the attention of this
Court if for no other reason than to ensure a nationally
applicable rule is applied uniformly.

22
CONCLUSION
In Long Beach, an alleged difference of medical
opinion alone suffices to show a claim is “false” under the
False Claims Act; in Miami Beach, the same difference of
opinion, without more, establishes no false claim. Visitors
to these two port cities might reliably identify their many
differences, but their application of the False Claims Act
ought not to be among them. The Court should grant the
petition.
Respectfully submitted,
Matthew D. Umhofer
Counsel of Record
Kevin J. Minnick
Spertus, Landes
& Umhofer, LLP
1990 South Bundy Drive,
Suite 705
Los Angeles, California 90025
(310) 826-4700
matthew@spertuslaw.com
Counsel for Petitioner
December 3, 2020

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FILED MARCH 23, 2020
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-55020
JANE WINTER, EX REL.
UNITED STATES OF AMERICA,
Plaintiff-Appellant,
v.
GARDENS REGIONAL HOSPITAL AND
MEDICAL CENTER, INC., DBA TRI- CITY
REGIONAL MEDICAL CENTER, A CALIFORNIA
CORPORATION, ROLLINSNELSON LTC CORP., A
CALIFORNIA CORPORATION, VICKI ROLLINS,
BILL NELSON, S&W HEALTH MANAGEMENT
SERVICES, INC., A CALIFORNIA CORPORATION,
BERYL WEINER, PRODE PASCUAL, M.D.,
RAFAELITO VICTORIA, M.D., ARNOLD LING,
M.D., CYNTHIA MILLER-DOBALIAN, M.D.,
EDGARDO BINOYA, M.D., NAMIKO NERIO, M.D.,
MANUEL SACAPANO, M.D.,
Defendants-Appellees.

2a
Appendix A
Appeal from the United States District Court
for the Central District of California
John F. Walter, District Judge, Presiding
Argued and Submitted
September 13, 2019 Pasadena, California
Filed March 23, 2020
Before: Johnnie B. Rawlinson, John B. Owens,
and Mark J. Bennett, Circuit Judges.
Opinion by Judge Bennett.
SUMMARY*
False Claims Act
The panel reversed the district court’s dismissal
for failure to state a claim and remanded in an action
under the False Claims Act, alleging that defendants
submitted, or caused to be submitted, Medicare claims
falsely certifying that patients’ inpatient hospitalizations
were medically necessary.
Plaintiff alleged that the admissions were not
medically necessary and were contraindicated by
the patients’ medical records and the hospital’s own
admissions criteria. The district court held that “to prevail
This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the reader.
*

3a
Appendix A
on an FCA claim, a plaintiff must show that a defendant
knowingly made an objectively false representation,” and
so a statement that implicates a doctor’s clinical judgment
can never state a claim under the FCA because “subjective
medical opinions . . . cannot be proven to be objectively
false.”
The panel held that a plaintiff need not allege falsity
beyond the requirements adopted by Congress in the
FCA, which primarily punishes those who submit,
conspire to submit, or aid in the submission of false
or fraudulent claims. The panel stated that Congress
imposed no requirement of objective falsity, and the
panel had no authority to rewrite the statute to add such
a requirement. The panel held that a doctor’s clinical
opinion must be judged under the same standard as any
other representation. A doctor, like anyone else, can
express an opinion that he knows to be false, or that
he makes in reckless disregard of its truth or falsity.
Agreeing with other circuits, the panel therefore held
that a false certification of medical necessity can give
rise to FCA liability. The panel also held that a false
certification of medical necessity can be material because
medical necessity is a statutory prerequisite to Medicare
reimbursement.
OPINION
BENNETT, Circuit Judge:
Appellant-Relator Jane Winter (“Winter”), the former
Director of Care Management at Gardens Regional

4a
Appendix A
Hospital (“Gardens Regional”), brought this qui tam
action under the False Claims Act (“FCA”), 31 U.S.C.
§§ 3729-33. Winter alleges Defendants1 submitted,
or caused to be submitted, Medicare claims falsely
certifying that patients’ inpatient hospitalizations were
medically necessary. Winter alleges that the admissions
were not medically necessary and were contraindicated
by the patients’ medical records and the hospital’s own
admissions criteria. The district court dismissed Winter’s
second amended complaint (“the complaint”) for failure
to state a claim. The district court held that “to prevail
on an FCA claim, a plaintiff must show that a defendant
knowingly made an objectively false representation,” so a
statement that implicates a doctor’s clinical judgment can
never state a claim under the FCA because “subjective
medical opinions . . . cannot be proven to be objectively
false.”
We have jurisdiction under 28 U.S.C. § 1291. We
hold that a plaintiff need not allege falsity beyond the
requirements adopted by Congress in the FCA, which
primarily punishes those who submit, conspire to submit,
or aid in the submission of false or fraudulent claims.
Congress imposed no requirement of proving “objective
falsity,” and we have no authority to rewrite the statute
to add such a requirement. A doctor’s clinical opinion
must be judged under the same standard as any other
representation. A doctor, like anyone else, can express
1. The Defendants include Gardens Regional Hospital, the
hospital management company (S&W Health Management Services)
and its owners (RollinsNelson, Rollins, Nelson, and Weiner), and
individual physicians who diagnosed and admitted patients.

5a
Appendix A
an opinion that he knows to be false, or that he makes in
reckless disregard of its truth or falsity. See 31 U.S.C.
§ 3729(b)(1). We therefore hold that a false certification
of medical necessity can give rise to FCA liability. 2 We
also hold that a false certification of medical necessity
can be material because medical necessity is a statutory
prerequisite to Medicare reimbursement. Accordingly,
we reverse and remand.
BACKGROUND
A.

The “Medical Necessity” Requirement

The Medicare prog ram provides basic health
insurance for individuals who are 65 or older, disabled,
or have endstage renal disease. 42 U.S.C. § 1395c.
“[N]o payment may be made . . . for any expenses incurred
for items or services . . . [that] are not reasonable and
necessary for the diagnosis or treatment of illness or
injury or to improve the functioning of a malformed
body member[.]” 42 U.S.C. § 1395y(a)(1)(A). Medicare
reimburses providers for inpatient hospitalization only
if “a physician certifies that such services are required
to be given on an inpatient basis for such individual’s
medical treatment, or that inpatient diagnostic study is
medically required and such services are necessary for
such purpose[.]” 42 U.S.C. § 1395f(a)(3).

2. The FCA covers claims that are “false or fraudulent.” 31
U.S.C. § 3729(a)(1). For convenience, we will generally use “false”
to mean “false or fraudulent.”

6a
Appendix A
The Department of Health and Human Services,
Centers for Medicare & Medicaid Services (“CMS”),
administers the Medicare program and issues guidance
governing reimbursement. CMS defines a “reasonable
and necessary” service as one that “meets, but does not
exceed, the patient’s medical need,” and is furnished “in
accordance with accepted standards of medical practice
for the diagnosis or treatment of the patient’s condition . . .
in a setting appropriate to the patient’s medical needs and
condition[.]” CMS, Medicare Program Integrity Manual
§ 13.5.4 (2019). The Medicare program tells patients that
“medically necessary” means health care services that are
“needed to diagnose or treat an illness, injury, condition,
disease, or its symptoms and that meet accepted standards
of medicine.” CMS, Medicare & You 2020: The Official U.S.
Government Medicare Handbook 114 (2019).
Admitting a patient to the hospital for inpatient—as
opposed to outpatient—treatment requires a formal
admission order from a doctor “who is knowledgeable
about the patient’s hospital course, medical plan of care,
and current condition.” 42 C.F.R. § 412.3(b). Inpatient
admission “ is generally appropriate for pay ment
under Medicare Part A when the admitting physician
expects the patient to require hospital care that crosses
two midnights,” but inpatient admission can also be
appropriate under other circumstances if “supported by
the medical record.” Id. § 412.3(d)(1), (3).
The Medicare program trusts doctors to use their
clinical judgment based on “complex medical factors,”
but does not give them unfettered discretion to decide

7a
Appendix A
whether inpatient admission is medically necessary:
“The factors that lead to a particular clinical expectation
must be documented in the medical record in order to
be granted consideration.” Id. § 412.3(d)(1)(i) (emphasis
added). And the regulations consider medical necessity a
question of fact: “No presumptive weight shall be assigned
to the physician’s order under § 412.3 or the physician’s
certification . . . in determining the medical necessity
of inpatient hospital services . . . . A physician’s order
or certification will be evaluated in the context of the
evidence in the medical record.” Id. § 412.46(b).
B. The False Claims Act
The FCA imposes significant civil liability on any
person who, inter alia, (A) “knowingly presents, or causes
to be presented, a false or fraudulent claim for payment
or approval,” (B) “knowingly makes, uses, or causes to
be made or used, a false record or statement material to
a false or fraudulent claim,” or (C) “conspires to commit
a violation of subparagraph (A), [or] (B)[.]” 31 U.S.C.
§ 3729(a)(1). The Act allows private plaintiffs to enforce
its provisions by bringing a qui tam suit on behalf of the
United States. Id. § 3730(b).
A plaintiff must allege: “(1) a false statement or
fraudulent course of conduct, (2) made with the scienter,
(3) that was material, causing, (4) the government to pay
out money or forfeit moneys due.” United States ex rel.
Campie v. Gilead Scis., Inc., 862 F.3d 890, 899 (9th Cir.
2017). Winter’s allegations fall under a “false certification”

8a
Appendix A
theory of FCA liability. 3 See Universal Health Servs., Inc.
v. United States ex rel. Escobar, 136 S. Ct. 1989, 2001,
195 L. Ed. 2d 348 (2016). Because medical necessity is
a condition of payment, every Medicare claim includes
an express or implied certification that treatment was
medically necessary. Claims for unnecessary treatment
are false claims. Defendants act with the required scienter
if they know the treatment was not medically necessary,
or act in deliberate ignorance or reckless disregard of
whether the treatment was medically necessary. See 31
U.S.C. § 3729(b)(1).
C.

The Allegations in Winter’s Complaint4

Winter, a registered nurse, became the Director of
Care Management and Emergency Room at Gardens
Regional in August 2014, and came to the job with thirteen
years of experience as a director of case management at
hospitals in Southern California and Utah.
Winter reviewed hospital admissions using the
admissions criteria adopted by Gardens Regional—the
InterQual Level of Care Criteria 2014 (“the InterQual
criteria”). The InterQual criteria, promulgated by
3. The complaint alleges both express and implied false
certification.
4. All facts are taken from Winter’s second amended complaint.
“We accept all factual allegations in the complaint as true and
construe the pleadings in the light most favorable to the nonmoving
party.” Outdoor Media Grp., Inc. v. City of Beaumont, 506 F.3d 895,
900 (9th Cir. 2007).

9a
Appendix A
McKesson Health Solutions LLC and updated annually,
“are reviewed and validated by a national panel of
clinicians and medical experts,” and represent “a
synthesis of evidence-based standards of care, current
practices, and consensus from licensed specialists and/or
primary care physicians.” Medicare uses the criteria to
evaluate claims for payment. And, as the criteria require
a secondary review of all care decisions, Winter’s job
included reviewing Garden Regional patients’ medical
records and applying the criteria to evaluate the medical
necessity of hospital admissions.
In mid-July 2014, Defendant RollinsNelson—which
owned and operated nursing facilities in the Los Angeles
area—acquired a 50% ownership interest in Defendant
S&W, the management company that oversaw operations
at Gardens Regional. RollinsNelson then began jointly
managing the hospital with S&W. When Winter started
work, she noticed that the emergency room saw an
unusually high number of patients transported from
RollinsNelson nursing homes, including from a facility
sixty miles away. The RollinsNelson patients were not
just treated on an outpatient basis or held overnight
for observation—most were admitted for inpatient
hospitalization. In August 2014, 83.5% of the patients
transported from RollinsNelson nursing homes were
admitted to Gardens Regional for inpatient treatment—
an unusually high admissions rate based on Winter’s
experience and judgment.
Winter was concerned about this pattern and
scrutinized Gardens Regional’s admissions statistics,

10a
Appendix A
comparing July and August 2014 to prior months. She
realized that the spike in admissions from RollinsNelson
nursing homes corresponded with RollinsNelson’s
acquisition of S&W. Not only did the number of admissions
increase, the number of Medicare beneficiaries admitted
rose as well. The number of Medicare beneficiaries
admitted in August 2014, for example, surpassed that
of any month before RollinsNelson began managing the
hospital. Winter alleges that RollinsNelson and S&W—
including the individual owners of both entities—“exerted
direct pressure on physicians to admit patients to [Gardens
Regional] and cause false claims to be submitted based
on false certifications of medical necessity.”
Winter’s complaint details sixty-five separate patient
admissions—identified by the admitting physician,
patient’s initials, chief complaint, diagnosis, length of
admission, the Medicare billing code, and the amount billed
to Medicare— that Winter alleges did not meet Gardens
Regional’s admissions criteria and were unsupported by
the patients’ medical records. She alleges that none of the
admissions were medically necessary. Winter observed
several trends: i) admitting patients for urinary tract
infections (“UTIs”) ordinarily treated on an outpatient
basis with oral antibiotics; ii) admitting patients for
septicemia with no evidence of sepsis in their records; and
iii) admitting patients for pneumonia or bronchitis with no
evidence of such diseases in their medical records. Winter
estimates that in less than two months—between July
14 and September 9, 2014—Gardens Regional submitted
$1,287,701.62 in false claims to the Medicare program.

11a
Appendix A
Winter repeatedly tried to bring her concerns to the
attention of hospital management, with no success. In her
first week, she reported the high number of unnecessary
admissions to the hospital’s Chief Operating Officer. After
receiving no response, she reached out to the hospital’s
Chief Executive Officer. When she still received no
response, she tried confronting Dr. Sacapano directly.
He told her: “You know who I’m getting pressure from.”
Winter understood Dr. Sacapano to mean the hospital
management.
At the beginning of September 2014, Defendants
Rollins, Nelson and Weiner—the owners of S&W and
RollinsNelson—“called an urgent impromptu meeting,”
and “instructed case management not to question the
admissions to [Gardens Regional.]” When Winter tried to
speak up, Rollins cut her off, using profanity. Shortly after
the meeting, Rollins instructed one of the hospital’s case
managers to “coach” physicians, explaining in an email
that “[t]hese Mds will most likely increase their admits
because their documentation will be ‘assisted.’”
In November 2014, Gardens Regional fired Winter and
replaced her with an employee who had never questioned
any inpatient admissions. Winter filed her complaint a
week later.
D.

Procedural History

In November 2017, after the Government had declined
to intervene and Winter had filed the second amended
complaint, Defendants RollinsNelson, Rollins, Nelson,

12a
Appendix A
S&W, Weiner and Dr. Pascual filed motions to dismiss
the complaint for failure to state a claim. 5 The district
court granted the motions, dismissing Winter’s three
FCA claims against all Defendants for the same reasons:
(1) because a determination of “medical necessity” is a
“subjective medical opinion[] that cannot be proven to
be objectively false,” and (2) because the alleged false
statements, which the district court characterized as the
“failure to meet InterQual criteria,” were not material.6
STANDARD OF REVIEW
We review the grant of a motion to dismiss de novo.
Manzarek v. St. Paul Fire & Marine Ins. Co., 519 F.3d
1025, 1030 (9th Cir. 2008). “In reviewing the dismissal of
a complaint, we inquire whether the complaint’s factual
allegations, together with all reasonable inferences, state
a plausible claim for relief.” Cafasso, United States ex rel.
v. Gen. Dynamics C4 Sys., Inc., 637 F.3d 1047, 1054 (9th
Cir. 2011). As with all fraud allegations, a plaintiff must
plead FCA claims “with particularity” under Federal Rule
of Civil Procedure 9(b). Id.
5. At oral argument, Winter’s counsel acknowledged that Dr.
Sacapano and Dr. Nerio had not yet been served with the second
amended complaint when the district court, in granting the moving
Defendants’ motions to dismiss, sua sponte dismissed the complaint
against them as well. Oral Argument at 10:58, Winter v. Gardens
Regional Hosp., et al., No. 18-55020 (9th Cir. Sept. 13, 2019), https://
www.ca9.uscourts.gov/media/view_video.php?pk_vid=0000016196.
6. The district court did not dismiss Winter’s retaliation claim
against Gardens Regional. Winter voluntarily dismissed that claim
without prejudice to allow for an appeal.

13a
Appendix A
DISCUSSION
A.

Winter properly alleges false or fraudulent
statements

We interpret the FCA broadly, in keeping with the
Congress’s intention “to reach all types of fraud, without
qualification, that might result in financial loss to the
Government.” United States v. Neifert-White Co., 390 U.S.
228, 232, 88 S. Ct. 959, 19 L. Ed. 2d 1061 (1968). For that
reason, the Supreme Court “has consistently refused to
accept a rigid, restrictive reading” of the FCA, id., and
has cautioned courts against “adopting a circumscribed
view of what it means for a claim to be false or fraudulent,”
Escobar, 136 S. Ct. at 2002 (quoting United States v. Sci.
Applications Int’l Corp., 626 F.3d 1257, 1270, 393 U.S.
App. D.C. 223 (D.C. Cir. 2010)).
“[W]e start, as always, with the language of the
statute.” Id. at 1999 (quoting Allison Engine Co. v.
United States ex rel. Sanders, 553 U.S. 662, 668, 128 S.
Ct. 2123, 170 L. Ed. 2d 1030 (2008)). The plain language
of the FCA imposes liability for presenting, or causing to
be presented, a “false or fraudulent claim for payment or
approval,” making “a false record or statement material
to a false or fraudulent claim,” or conspiring to do either.
31 U.S.C. § 3729(a)(1)(A)-(C). Because Congress did not
define “false or fraudulent,” we presume it incorporated
the common-law definitions, including the rule that a
statement need not contain an “express falsehood” to be
actionable. Escobar, 136 S. Ct. at 1999 (“[I]t is a settled
principle of interpretation that, absent other indication,

14a
Appendix A
Congress intends to incorporate the well-settled meaning
of the common-law terms it uses.” (quoting Sekhar v.
United States, 570 U.S. 729, 732, 133 S. Ct. 2720, 186 L.
Ed. 2d 794 (2013))). And, in at least one respect, Congress
intended for the FCA to be broader than the common law:
Under the FCA, “‘knowingly’ . . . require[s] no proof of
specific intent to defraud.” 31 U.S.C. § 3729(b)(1)(B).
“[O]pinions are not, and have never been, completely
insulated from scrutiny.” United States v. Paulus, 894
F.3d 267, 275-76 (6th Cir. 2018) (upholding conviction for
Medicare fraud where physician justified unnecessary
procedures by exaggerating his interpretation of medical
tests); see also Hooper v. Lockheed Martin Corp., 688 F.3d
1037, 1049 (9th Cir. 2012) (holding that false estimates
“can be a source of liability under the FCA”). Under
the common law, a subjective opinion is fraudulent if it
implies the existence of facts that do not exist, or if it is
not honestly held. Restatement (Second) of Torts § 525; id.
§ 539. As the Supreme Court recognized, “the expression
of an opinion may carry with it an implied assertion, not
only that the speaker knows no facts which would preclude
such an opinion, but that he does know facts which justify
it.” Omnicare, Inc. v. Laborers Dist. Council Constr.
Indus. Pension Fund, 575 U.S. 175, 191, 135 S. Ct. 1318,
191 L. Ed. 2d 253 (2015) (quoting W. Page Keeton et al.,
Prosser and Keeton on the Law of Torts § 109, at 760 (5th
ed. 1984)).
Defendants and amici curiae American Health Care
Association, National Center for Assisted Living, and
California Association of Health Facilities urge this court

15a
Appendix A
to hold the FCA requires a plaintiff to plead an “objective
falsehood.” But “[n]othing in the text of the False Claims
Act supports [Defendants’] proposed restriction.” Escobar,
136 S. Ct. at 2001. Under the plain language of the statute,
the FCA imposes liability for all “false or fraudulent
claims”—it does not distinguish between “objective” and
“subjective” falsity or carve out an exception for clinical
judgments and opinions.
Defendants are correct that if clinical judgments can
be fraudulent under the FCA, doctors will be exposed
to liability they would not face under Defendants’ view
of the law. “But policy arguments cannot supersede the
clear statutory text.” Id. at 2002. Our role is “to apply,
not amend, the work of the People’s representatives.”
Henson v. Santander Consumer USA Inc., 137 S. Ct. 1718,
1726, 198 L. Ed. 2d 177 (2017). And the Supreme Court
has already addressed Defendants’ concern: “Instead of
adopting a circumscribed view of what it means for a claim
to be false or fraudulent, concerns about fair notice and
open-ended liability can be effectively addressed through
strict enforcement of the Act’s materiality and scienter
requirements.” Escobar, 136 S. Ct. at 2002 (quotation
marks, alterations, and citation omitted).
We have similarly explained that the FCA requires
“the ‘knowing presentation of what is known to be false’”
and that “[t]he phrase ‘known to be false’. . . does not mean
‘scientifically untrue’; it means ‘a lie.’ The Act is concerned
with ferreting out ‘wrongdoing,’ not scientific errors.”
Wang v. FMC Corp., 975 F.2d 1412, 1421 (9th Cir. 1992)
(citations omitted), overruled on other grounds by United

16a
Appendix A
States ex rel. Hartpence v. Kinetic Concepts, Inc., 792 F.3d
1121 (9th Cir. 2015) (en banc). This does not mean, as the
district court understood it, that only “objectively false”
statements can give rise to FCA liability. It means that
falsity is a necessary, but not sufficient, requirement for
FCA liability—after alleging a false statement, a plaintiff
must still establish scienter. Id. (“What is false as a matter
of science is not, by that very fact, wrong as a matter of
morals.”). To be clear, a “scientifically untrue” statement
is “false”—even if it may not be actionable because it was
not made with the requisite intent. And an opinion with no
basis in fact can be fraudulent if expressed with scienter.
We are not alone in concluding that a false certification
of medical necessity can give rise to FCA liability. In
United States ex rel. Riley v. St. Luke’s Episcopal
Hospital, the Fifth Circuit recognized that “claims for
medically unnecessary treatment are actionable under
the FCA.” 355 F.3d 370, 376 (5th Cir. 2004). The plaintiff
alleged the defendants filed false claims “for services that
were . . . medically unnecessary,” id. at 373, and the Fifth
Circuit reversed the district court’s dismissal for failure
to state a claim, explaining that because the complaint
alleged that the defendants ordered medical services
“knowing they were unnecessary,” the statements were
lies, not simply errors. Id. at 376.
Likewise, in United States ex rel. Polukoff v. St.
Mark’s Hospital, the Tenth Circuit recognized “[i]t is
possible for a medical judgment to be ‘false or fraudulent’
as proscribed by the FCA[.]” 895 F.3d 730, 742 (10th
Cir. 2018). The court looked to CMS’s definition of

17a
Appendix A
“medically necessary,” and held, “a doctor’s certification
to the government that a procedure is ‘reasonable and
necessary’ is ‘false’ under the FCA if the procedure was
not reasonable and necessary under the government’s
definition of the phrase.” Id. at 743. The Third Circuit
reached a similar conclusion in United States ex rel.
Druding v. Care Alternatives, 952 F.3d 89, 2020 U.S. App.
LEXIS 6795, 2020 WL 1038083 (3d Cir. 2020), rejecting
the “bright-line rule that a doctor’s clinical judgment
cannot be ‘false.’” 2020 U.S. App. LEXIS 6795, [WL] at
*7 (holding that, in the context of certifying terminal
illness, “for purposes of FCA falsity, a claim may be ‘false’
under a theory of legal falsity, where it fails to comply
with statutory and regulatory requirements,” and that “a
physician’s judgment may be scrutinized and considered
‘false,’” 2020 U.S. App. LEXIS 6795, [WL] at *9).
The Eleventh Circuit’s recent decision in United
States v. AseraCare, Inc., 938 F.3d 1278 (11th Cir. 2019),
is not directly to the contrary. In AseraCare, the Eleventh
Circuit held that “a clinical judgment of terminal illness
warranting hospice benefits under Medicare cannot be
deemed false, for purposes of the False Claims Act, when
there is only a reasonable disagreement between medical
experts as to the accuracy of that conclusion, with no other
evidence to prove the falsity of the assessment.” Id. at 1281
(emphases added). We recognize that the court also said
“a claim that certifies that a patient is terminally ill . . .
cannot be ‘false’—and thus cannot trigger FCA liability—
if the underlying clinical judgment does not reflect an
objective falsehood.” Id. at 1296-97. But we conclude that
our decision today does not conflict with AseraCare for
two reasons.

18a
Appendix A
First, the Eleventh Circuit was not asked whether
a medical opinion could ever be false or fraudulent, but
whether a reasonable disagreement between physicians,
without more, was sufficient to prove falsity at summary
judgment. Id. at 1297-98. Notwithstanding the Eleventh
Circuit’s language about “objective falsehoods,” the
court clearly did not consider all subjective statements—
including medical opinions—to be incapable of falsity,
and identified circumstances in which a medical opinion
would be false.7
Second, the Eleventh Circuit recognized that its
“objective falsehood” requirement did not necessarily
apply to a physician’s certification of medical necessity—
explicitly distinguishing Polukoff. Id. at 1300 n.15.
Rather, the court explained that the “hospice-benefit
provision at issue” purposefully defers to “whether
a physician has based a recommendation for hospice
treatment on a genuinely-held clinical opinion” whether
a patient was terminally ill. 8 Id.; see also id. at 1295. In
7. For example, “if the [doctor] does not actually hold that
opinion” or simply “rubber-stamp[s] whatever file was put in front
of him,” if the opinion is “based on information that the physician
knew, or had reason to know, was incorrect,” or if “no reasonable
physician” would agree with the doctor’s opinion, “based on the
evidence[.]” AseraCare, 938 F.3d at 1302.
8. A patient must have less than six months to live to be eligible
for hospice care. AseraCare, 938 F.3d at 1282. But, as the Eleventh
Circuit explained, CMS “repeatedly emphasized that ‘[p]redicting life
expectancy is not an exact science,’ [and that] ‘certifying physicians
have the best clinical experience, competence and judgment to make
the determination that an individual is terminally ill.’” Id. at 1295

19a
Appendix A
fact, after holding that physicians’ hospice-eligibility
determinations are entitled to deference, the Eleventh
Circuit explained that the less-deferential medical
necessity requirement remained an important safeguard:
“The Government’s argument that our reading of the
eligibility framework would ‘tie CMS’s hands’ and ‘require
improper reimbursements’ is contrary to the plain design
of the law” because “CMS is statutorily prohibited
from reimbursing providers for services ‘which are not
reasonable and necessary[.]’” Id. at 1295 (alteration and
citation omitted). Thus, for the same reason the Eleventh
Circuit recognized AseraCare did not conf lict with
Polukoff, we believe our decision does not conflict with
AseraCare. And to the extent that AseraCare can be read
to graft any type of “objective falsity” requirement onto
the FCA, we reject that proposition. See Druding, 2020
U.S. App. LEXIS 6795, 2020 WL 1038083, at *8.
In sum, we hold that the FCA does not require a
plaintiff to plead an “objective falsehood.” A physician’s
certification that inpatient hospitalization was “medically
necessary” can be false or fraudulent for the same reasons
any opinion can be false or fraudulent. These reasons
include if the opinion is not honestly held, or if it implies the
existence of facts—namely, that inpatient hospitalization
is needed to diagnose or treat a medical condition, in
accordance with accepted standards of medical practice—
that do not exist. See Polukoff, 895 F.3d at 742-43.
(quoting 75 Fed. Reg. 70372, 70448 (Nov. 17, 2010) and 78 Fed. Reg.
48234, 48247 (Aug. 7, 2013)). By contrast, a certification of medical
necessity is not entitled to deference. 42 C.F.R. § 412.46(b).

20a
Appendix A
We now turn to Winter’s complaint. We accept all
facts alleged as true and draw all inferences in Winter’s
favor, and conclude that her complaint plausibly alleges
false certifications of medical necessity.
First, the complaint “alleges a ‘scheme’ connoting
knowing misconduct.” Riley, 355 F.3d at 376. RollinsNelson
and S&W—and their individual owners Rollins, Nelson
and Weiner—had a motive to falsify Medicare claims
and pressure doctors to increase admissions. Gardens
Regional relied on Medicare for a “significant portion”
of its revenue, and the spike in admissions corresponded
with an increased number of Medicare beneficiaries in its
care. Moreover, the increased admissions of RollinsNelson
patients began when RollinsNelson started managing
Gardens Regional.
Second, not only does Winter identify suspect trends
in inpatient admissions—for example, hospitalizing
patients for UTIs—she also alleges statistics showing
an overall increase in hospitalizations once RollinsNelson
started managing the hospital. For example, the daily
occupancy rate jumped by almost 10%, the number of
Medicare beneficiaries became the highest it had ever
been by a significant margin, and the admissions rate
from RollinsNelson nursing homes was over 80%. Plus, the
large number of admissions that did not meet the criteria,
and the fact that the vast majority of admissions came
from a single doctor—Dr. Pascual, who had contractually
agreed to use the InterQual criteria—decreases the
likelihood that any given admission was an outlier.

21a
Appendix A
Third, Winter’s detailed allegations as to each
Medicare claim support an inference of falsity. This is not
a complaint that “identifies a general sort of fraudulent
conduct but specifies no particular circumstances of any
discrete fraudulent statement[.]” Cafasso, 637 F.3d at
1057. The complaint identifies sixty-five allegedly false
claims in great detail, listing the date of admission,
the admitting physician, the patient’s chief complaint
and diagnosis, and the amount billed to Medicare. The
complaint alleges that each admission failed to satisfy the
hospital’s own admissions criteria—the InterQual criteria
that Gardens Regional and Dr. Pascual had contractually
agreed to use and that Winter’s job as Director of Care
Management required her to apply. And, as the district
court recognized, the InterQual criteria represent the
“consensus of medical professionals’ opinions,” so a failure
to satisfy the criteria also means that the admission went
against the medical consensus.
Finally, we note that many of the allegations
supporting an inference of scienter also support an
inference of falsity. Cf. AseraCare, 938 F.3d at 1304-05
(remanding for district court to consider evidence related
to scienter in determining falsity on summary judgment).
For example, when confronted, Dr. Sacapano corroborated
Winter’s suspicions, telling her that hospital management
pressured him into recommending patients for medically
unnecessary inpatient admission. And following Winter’s
numerous attempts to bring her concerns to the attention
of hospital management, Defendants Rollins, Nelson, and
Weiner held a meeting where they instructed Winter and
other staff not to question the admissions.

22a
Appendix A
Defendants argue that “Winter has alleged nothing
more than her competing opinion with the treating
physicians who actually saw the patients at issue.”
The district court similarly dismissed the complaint
because Winter’s “contention that the medical provider’s
certifications were false is based on her own after-the-fact
review of [Gardens Regional’s] admission records.” To
begin with, an opinion can establish falsity. See Paulus,
894 F.3d at 270, 277 (affirming doctor’s conviction for
healthcare fraud by performing medically unnecessary
procedures and holding that experts’ “opinions, having
been accepted into evidence, are sufficient to carry the
government’s burden of proof”); cf. AseraCare, 938 F.3d
at 1300 (distinguishing Paulus because in AseraCare “the
Government’s expert witness declined to conclude that
[the clinical judgments of] AseraCare’s physicians . . .
were unreasonable or wrong”). Winter alleges more than
just a reasonable difference of opinion. In addition to the
allegations discussed above, she alleges that a number of
the hospital admissions were for diagnoses that had been
disproven by laboratory tests, and that several admissions
were for psychiatric treatment, even though Gardens
Regional was not a psychiatric hospital— and one of those
patients never even saw a psychiatrist. Even if we were
to discount Winter’s evaluation of the medical records, as
the district court did, the other facts she alleges would
be sufficient to make her allegations of fraud plausible.
But more importantly, assessing medical necessity
based on an “after-the-fact review” of patients’ medical
records was Winter’s job. At the motion to dismiss stage,
her assessment is “entitled to the presumption of truth[.]”

23a
Appendix A
Starr v. Baca, 652 F.3d 1202, 1216 (9th Cir. 2011). “The
standard at this stage of the litigation is not that plaintiff’s
explanation must be true or even probable. The factual
allegations of the complaint need only ‘plausibly suggest
an entitlement to relief.’” Id. at 1216-17 (quoting Ashcroft
v. Iqbal, 556 U.S. 662, 681, 129 S. Ct. 1937, 173 L. Ed. 2d
868 (2009)). Winter’s complaint satisfies that standard.9
B. Winter properly alleges material false or
fraudulent statements
The district court also held that Winter failed to allege
any material false statements. We disagree.
“[T]he term ‘material’ means having a natural
tendency to influence, or be capable of influencing, the
payment or receipt of money or property.” 31 U.S.C.
§ 3729(b)(4). “Under any understanding of the concept,
materiality ‘looks to the effect on the likely or actual
behavior of the recipient of the alleged misrepresentation.’”
Escobar, 136 S. Ct. at 2002 (quoting 26 Samuel Williston &
9. FCA claims must also be pleaded with particularity under
Federal Rule of Civil Procedure 9(b). Cafasso, 637 F.3d at 1054.
While a plaintiff need not “allege ‘all facts supporting each and
every instance’ of billing submitted,” she must “provide enough
detail ‘to give [defendants] notice of the particular misconduct which
is alleged to constitute the fraud charged so that [they] can defend
against the charge and not just deny that [they have] done anything
wrong.’” Ebeid ex rel. United States v. Lungwitz, 616 F.3d 993, 999
(9th Cir. 2010) (quoting United States ex rel. Lee v. SmithKline
Beecham, Inc., 245 F.3d 1048, 1051-52 (9th Cir. 2001)). Winter’s
detailed allegations clearly suffice to put Defendants on notice of
their alleged false statements.

24a
Appendix A
Richard A. Lord, Williston on Contracts § 69:12 (4th ed.
2003)) (alteration omitted). No “single fact or occurrence”
determines materiality—“the Government’s decision to
expressly identify a provision as a condition of payment
is relevant, but not automatically dispositive.” Id. at
2001, 2003 (citation omitted). For a false statement to
be material, a plaintiff must plausibly allege that the
statutory violations are “so central” to the claims that
the government “would not have paid these claims had
it known of these violations.” Id. at 2004; see also id. at
2003 (“[P]roof of materiality can include . . . evidence that
the defendant knows that the Government consistently
refuses to pay claims in the mine run of cases based on
noncompliance with the particular statutory, regulatory,
or contractual requirement.”).
The district court analyzed whether failure to meet
the InterQual criteria was material and concluded that
it was not because “[t]here is no mention of the InterQual
criteria in any of the relevant statutes or regulations.”
This misreads the complaint. Winter does not allege
that failure to satisfy the InterQual criteria made
Defendants’ Medicare claims per se false—although, as
discussed above, she claims that the InterQual criteria
support her allegations because they reflect a medical
consensus. Rather, she alleges that “[Defendants’]
claims for payment . . . were false in that the services
claimed for (inpatient hospital admissions) were not
medically necessary and economical,” and that Defendants
submitted “false certifications of . . . medical necessity.”
We conclude that a false certification of medical
necessity can be material. The medical necessity

25a
Appendix A
requirement is not an “insignificant regulatory or
contractual violation[.]” Escobar, 136 S. Ct. at 2004.
Congress prohibited payment for treatment “not
reasonable and necessary for the diagnosis or treatment
of illness or injury or to improve the functioning of a
malformed body member[.]” 42 U.S.C. § 1395y(a)(1)(A).
And Medicare pays for inpatient hospitalization “only if . . .
such services are required to be given on an inpatient basis
for such individual’s medical treatment[.]” Id. § 1395f(a)(3)
(emphasis added). In fact, Medicare regulations require
all doctors to sign an acknowledgment that states,
Medicare payment to hospitals is based in
part on each patient’s principal and secondary
diagnoses and the major procedures performed
on the patient, as attested to by the patient’s
attending physician by virtue of his or her
signature in the medical record. Anyone who
misrepresents, falsifies, or conceals essential
information required for payment of Federal
funds, may be subject to fine, imprisonment,
or civil penalty under applicable Federal laws.
42 C.F.R. § 412.46(a)(2). In addition to highlighting
the above Medicare statutes and regulations, Winter’s
complaint alleges that the government “would not” have
“paid” Defendants’ false claims “if the true facts were
known.” In sum, Winter alleges that Defendants’ false
certification of the medical necessity requirement is “so
central” to the Medicare program that the government
“would not have paid these claims had it known” that
the inpatient hospitalizations were, in fact, unnecessary.

26a
Appendix A
Escobar, 136 S. Ct. at 2004. Thus, Winter has “sufficiently
ple[d] materiality at this stage of the case.” Campie, 862
F.3d at 907.
C.

Scienter

Defendants urge us to determine whether Winter
adequately alleged scienter. The district court did not
reach this issue but expressed doubt that Winter had.
Although we may consider alternate grounds for upholding
the district court’s decision, see Islamic Republic of Iran v.
Boeing Co., 771 F.2d 1279, 1288 (9th Cir. 1985), we decline
to do so here.
We remind the district court, however, that under Rule
9(b), scienter need not be pleaded with particularity, but
may be alleged generally. Fed. R. Civ. P. 9(b). A complaint
needs only to allege facts supporting a plausible inference
of scienter. United States ex rel. Lee v. Corinthian Colls.,
655 F.3d 984, 997 (9th Cir. 2011). And unlike in common
law fraud claims, a plaintiff need not prove a “specific
intent to defraud” under the FCA—the Act imposes
liability on any person acting “knowingly,” which includes
acting with “actual knowledge,” as well as acting “in
deliberate ignorance,” or “in reckless disregard of the
truth or falsity of the information[.]” 31 U.S.C. § 3729(b)
(1). As the Supreme Court noted in another Medicare
case, “[p]rotection of the public fisc requires that those
who seek public funds act with scrupulous regard for the
requirements of law[.]” Heckler v. Cmty. Health Servs. of
Crawford Cty., Inc., 467 U.S. 51, 63, 104 S. Ct. 2218, 81
L. Ed. 2d 42 (1984).

27a
Appendix A
CONCLUSION
We hold that a plaintiff need not plead an “objective
falsehood” to state a claim under the FCA, and that a
false certification of medical necessity can be material.
Accordingly, we reverse the district court’s dismissal of
Winter’s complaint and remand for further proceedings
consistent with this opinion.

28a
APPENDIX B — Appendix
OPINIONBOF THE UNITED
STATES DISTRICT COURT FOR THE CENTRAL
DISTRICT OF CALIFORNIA, FILED
DECEMBER 29, 2017
UNITED STATES DISTRICT COURT FOR THE
CENTRAL DISTRICT OF CALIFORNIA
Case No. CV 14-08850-JFW (Ex)
UNITED STATES OF AMERICA
EX REL. JANE WINTER
-vGARDENS REGIONAL HOSPITAL AND
MEDICAL CENTER, INC. et al.
December 29, 2017, Decided
December 29, 2017, Filed
HONORABLE JOHN F. WALTER,
UNITED STATES DISTRICT JUDGE.
PR O C EEDI NG S ( I N C H A M BER S): OR DER
GRANTING DEFENDANTS VICKI ROLLINS,
WILLIAM NELSON, AND ROLLINSNELSON
LTC CORPORATION’S MOTION TO DISMISS
PLAINTIFF’S SECOND AMENDED COMPLAINT
[Docket No. 120; filed 11/6/17]

29a
Appendix B
ORDER GR A N TI NG DEFEN DA N T S S &W
HEALTH MANAGEMENT SERVICES, INC.
AND BERYL WEINER’S MOTION TO DISMISS
PLAINTIFF’S SECOND AMENDED COMPLAINT
[Docket No. 122; filed 11/6/17]
ORDER GRA NTING DEFENDA NT PRODE
PA SCUA L , M . D.’ S MO TION T O DISMIS S
PLAINTIFF’S SECOND AMENDED COMPLAINT
[Docket No. 123; filed 11/6/17]
On November 6, 2017, Defendants S&W Health
Management Services, Inc. (“S&W”) and Beryl Weiner
(“Mr. Weiner”) (collectively, the “S&W Defendants”),
Vicky Rollins, William Nelson, and RollinsNelson LTC
Corporation (collectively, the “RollinsNelson Defendants”)
and Prode Pascual, M.D. (“Dr. Pascual”) filed Motions to
Dismiss Plaintiff Qui Tam Relator Jane Winter’s (“Ms.
Winter”) Second Amended Complaint (“SAC”) (Docket
Nos. 120, 122, 123). Plaintiff filed Oppositions to the
Motions on November 15, 2017. On November 22, 2017,
Defendants filed their Replies. Pursuant to Rule 78 of the
Federal Rules of Civil Procedure and Local Rule 7-15,
the Court found the matters appropriate for submission
on the papers without oral argument. The matters were,
therefore, removed from the Court’s December 11, 2017
hearing calendar, and the parties were given advance
notice. After considering the moving, opposing, and reply
papers, and the arguments therein, the Court rules as
follows:

30a
Appendix B
I.

Background
A.

The Parties

The RollinsNelson Defendants own and operate
several skilled nursing facilities in the greater Los
Angeles area. In addition, RollinsNelson and Mr. Beryl
own S&W. At all times relevant to this action, S&W owned
an entity known as Sycamore Healthcare (“Sycamore”),
which had a contract to manage operations at Gardens
Regional Hospital and Medical Center, Inc., doing
business as Tri-City Regional Medical Center (“TriCity”). Tri-City is a non-profit, acute care hospital with
inpatient and outpatient services, which filed for Chapter
11 bankruptcy protection on June 6, 2016 (Docket No. 45).
Dr. Pascual and non-moving defendants Rafaelito
Victoria, Arnold Ling, Cynthia Miller-Dobalian, Edgardo
Binoya, and Namiko Nerio were attending physicians with
admitting privileges at Tri-City. Non-moving defendant
Manuel Sacapano was an emergency room physician.
Although Dr. Sacapano made primary and secondary
medical diagnoses incident to attending physicians’
admissions of patients to Tri-City, he did not have
admitting privileges at Tri-City.
Ms. Winter is a registered nurse who worked briefly as
the Director of Care Management and Emergency Room
at Tri-City from August 11, 2014 until she was terminated
on November 6, 2014.

31a
Appendix B
B. Alleged False Claims
During her employment with Tri-City, Ms. Winter
was responsible for the operation of the emergency room
and for case management, social services, and utilization
review. During the first week of her employment at
Tri-City, Ms. Winter alleges that she noticed that
a disproportionate number of patients were being
transported to the hospital via ambulance from nursing
homes owned and operated by RollinsNelson. As a
result, Ms. Winter began investigating inpatient hospital
admissions of patients from facilities owned and operated
by RollinsNelson (“RollinsNelson Patients”).
Ms. Winter identified approximately 65 claims,
totaling approximately $1,287,701.62, related to inpatient
hospital admissions of RollinsNelson Patients between
July 14, 2014 and September 9, 2014 that she believed were
medically unnecessary and, therefore, false. According to
Ms. Winter, part of her job was to review and evaluate the
appropriateness of medical admissions using a hospital
industry standard set of criteria called InterQual Level of
Care Criteria 2014 (“InterQual”). Ms. Winter alleges that
she determined that none of the RollinsNelson Patients
met the inpatient criteria for admission to the hospital
under InterQual and, therefore, could not be properly
billed to Medicare.
InterQual is a nationally recognized evidence-based
clinical content and decision support criteria system
developed by McKesson Health Solutions LLC that
provides health facilities with assistance in determining

32a
Appendix B
the medical appropriateness of hospital admission,
continued stay, and discharge. The InterQual criteria are
reviewed and validated by a national panel of clinicians
and medical experts, including those in community and
academic practice settings, as well as those within the
managed care industry throughout the United States.
According to Ms. Winter, when a Medicare patient
presents to the hospital for inpatient admission or
observation, InterQual criteria are used to assess the
severity of their illness and the intensity of the required
service. Ms. Winter alleges that the hospital can only bill
Medicare for inpatient services if the InterQual criteria
for severity of illness and intensity of service are both
satisfied.
During the course of her investigation, Ms. Winter
advised Tri-City’s Chief Operating Officer (“COO”) that
she had determined that the hospital was admitting
patients from RollinsNelson facilities that did not meet the
InterQual criteria for inpatient admission to the hospital
and that Tri-City was therefore improperly billing these
charges to Medicare. Ms. Winter also notified Tri-City’s
Chief Executive Officer of her findings. Ms. Winter alleges
that the doctors named as defendants in this action (the
“Defendant Doctors”) admitted the RollinsNelson Patients
even though they knew the RollinsNelson Patients did not
require inpatient care. Despite Ms. Winter’s findings,
Ms. Winter alleges that the S&W Defendants and the
RollinsNelson Defendants pressured the Defendant
Doctors to continue to admit patients and to continue
to submit claims based on false certifications of medical
necessity. In addition, Ms. Winter alleges that Ms. Rollins

33a
Appendix B
and Mr. Nelson specifically instructed case management
personnel not to question the decision to admit these
patients, despite Ms. Winter’s objections. According to
Ms. Winter, the message from Ms. Rollins and Mr. Nelson
was clear: “anyone who questioned admissions to Tri-City
would be fired.”
Ms. Winter alleges that in September of 2014, Ms.
Rollins, in an email to case manager Elida Agatep,
explained how to coach physicians at Tri-City to
prepare the required documentation in order to increase
qualifying patient admissions to Tri-City. Ms. Winter also
alleges that the clear implication of the email was that the
RollinsNelson Defendants and the S&W Defendants were
attempting to override physicians’ medical judgment in
order to increase admissions to Tri-City and to increase
its billings to Medicare.
On November 6, 2014, Ms. Winter was terminated
from her position at Tri-City. She alleges that her
employment was terminated because of her numerous
attempts to stop the “rampant and blatant violations”
of the False Claims Act (“FCA”). After Ms. Winter was
terminated, Ms. Agatep was named the new Director of
Care Management and Emergency Room at Tri-City.
C.

Medicare System and Payments for Inpatient
Services

Medicare is a health insurance program administered
by the Centers for Medicare and Medicaid Services
(“CMS”), designed to provide access to health insurance

34a
Appendix B
for Americans aged 65 or older, people under age 65
with certain disabilities, and people of all ages with
End-Stage Rental Disease (permanent kidney failure
requiring dialysis or a kidney transplant). See 42 U.S.C.
§ 1395c. Eligible Medicare beneficiaries are provided a
choice of either signing up for traditional fee-for-service
(“”FFS”) coverage under Medicare Part A (Hospital
Insurance) and Part B (Medical Insurance), or selecting
a private plan option under Part C, which is also known as
“Medicare Advantage.” 42 U.S.C. § 1395w-21(a). Under the
traditional FFS model, physicians and hospitals (known
as “providers”) who care for beneficiaries are reimbursed
directly by the federal government.
To receive payment from Medicare for inpatient
hospital services provided to beneficiaries, a physician
must certify that the services are medically necessary.
42 U.S.C. § 1395f(a)(3). Medicare also provides: “to the
extent provided by regulations, the certification and
re-certification requirements” described in the statute
“shall be deemed satisfied where, at a later date, a
physician, nurse practitioner, clinical nurse specialist, or
physician assistant” provides “certification of the kind”
described in relevant provisions of the statute, but only
if the “certification is accompanied by such medical and
other evidence as may be required by such regulations.”
42 U.S.C. § 1395f(a)(8).
For purposes of payment under Medicare Part A,
an individual qualifies as an inpatient of a hospital if he
is formally admitted pursuant to an order for inpatient
admission by a physician or qualified practitioner

35a
Appendix B
eligible to admit patients. 42 C.F.R. § 412.3(a). In order
for a hospital to receive payment for inpatient services
provided to a beneficiary under Medicare Part A, the
physician’s order must be included in the medical record
and supported by the admitting physician’s admission and
progress notes. 42 C.F.R. § 412.3(a). The physician must
also certify that the services are required and include:
a documented reason for the hospitalization for either
inpatient medical treatment or diagnostic study, or special
or unusual services for cost outlier cases; and a statement
that the inpatient services were provided in accordance
with the physician’s order. 42 C.F.R. § 412.3(a).
Inpatient admission will generally qualify for payment
under Medicare Part A when the admitting physician
concludes or is of the opinion that the patient will “require
hospital care that crosses two midnights.” 42 C.F.R.
§ 412.3(d)(1). The physician’s decision to admit a patient
typically is based on complex medical factors such as
patient history and comorbidities, the severity of signs
and symptoms, current medical needs, and the risk of an
adverse event. 42 C.F.R. § 412.3(d)(1)(i). The factors that
are relied on for a particular clinical explanation must
be documented in the medical record in order to qualify
for payment. 42 C.F.R. § 412.3(d)(1)(i). If unforeseen
circumstances arise that result in a shorter stay than the
physician expected at the time of admission (i.e., a stay
that spans less than 24 hours), the patient may still be
treated on an inpatient basis and payment for an inpatient
hospital stay may be made under Medicare Part A. 42
C.F.R. § 412.3(d)(1)(ii). In addition, where the admitting
physician concludes that a patient should be admitted to

36a
Appendix B
the hospital but will not be required to stay for 2 days,
payment for the stay may be made under Medicare Part
A, provided the physician’s decision is based on complex
medical factors and the medical record supports the
physician’s determination. 42 C.F.R. § 412.3(d)(3).
Medicare will not make payments under Medicare
Part A or B for any expenses incurred for items or services
that are not reasonable and necessary for the diagnosis
or treatment of a beneficiary’s illness or injury. 42 U.S.C.
§ 1395y(a)(1)(A).
D.

Procedural History

Ms. Winter filed this qui tam action against Defendants
on November 14, 2014. On October 16, 2017, she filed
a Second Amended Complaint (“SAC”) asserting four
claims for violations of the FCA. Specifically, Ms. Winter
alleges four causes of action: (1) Violation of 31 U.S.C.
Section 3729(a)(1)(A) against Tri-City, RollinsNelson,
S&W, Ms. Rollins, Mr. Nelson, Mr. Weiner, Dr. Pascual,
and six other doctors for knowingly presenting or causing
to be presented a false or fraudulent claim for payment or
approval; (2) Violation of 31 U.S.C. Section 3729(a)(1)(B)
against Tri-City, RollinsNelson, S&W, Ms. Rollins, Mr.
Nelson, Mr. Weiner, Dr. Pascual, and six other doctors
for knowingly making, using, or causing to be made
or used a false record or statement material to a false
or fraudulent claim; (3) Violation of 31 U.S.C. Section
3729(a)(1)(C) against Tri-City, RollinsNelson, S&W, Ms.
Rollins, Mr. Nelson, Mr. Weiner, Dr. Pascual, and six
other doctors for conspiracy to violate the FCA; and

37a
Appendix B
(4) Violation of 31 U.S.C. Section 3730(h) against Tri-City,
Ms. Rollins, Mr. Nelson, RollinsNelson, Mr. Weiner, and
S&W for retaliation. Although the United States conducted
a thorough investigation of Ms. Winter’s allegations, on
March 16, 2017, it declined to intervene in this action.
II. Legal Standard
A motion to dismiss brought pursuant to Federal Rule
of Civil Procedure 12(b)(6) tests the legal sufficiency of
the claims asserted in the complaint. “A Rule 12(b)(6)
dismissal is proper only where there is either a ‘lack of
a cognizable legal theory’ or ‘the absence of sufficient
facts alleged under a cognizable legal theory.’” Summit
Tech., Inc. v. High-Line Med. Instruments Co., Inc., 922
F. Supp. 299, 304 (C.D. Cal. 1996) (quoting Balistreri v.
Pacifica Police Dept., 901 F.2d 696, 699 (9th Cir. 1988)).
However, “[w]hile a complaint attacked by a Rule 12(b)
(6) motion to dismiss does not need detailed factual
allegations, a plaintiff’s obligation to provide the ‘grounds’
of his ‘entitlement to relief’ requires more than labels and
conclusions, and a formulaic recitation of the elements of
a cause of action will not do.” Bell Atl. Corp. v. Twombly,
550 U.S. 544, 555, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007)
(internal citations and alterations omitted). “[F]actual
allegations must be enough to raise a right to relief above
the speculative level.” Id.
In deciding a motion to dismiss, a court must
accept as true the allegations of the complaint and must
construe those allegations in the light most favorable to
the nonmoving party. See, e.g., Wyler Summit P’ship v.

38a
Appendix B
Turner Broad. Sys., Inc., 135 F.3d 658, 661 (9th Cir. 1998).
“However, a court need not accept as true unreasonable
inferences, unwarranted deductions of fact, or conclusory
legal allegations cast in the form of factual allegations.”
Summit Tech., 922 F. Supp. at 304 (citing W. Mining
Council v. Watt, 643 F.2d 618, 624 (9th Cir. 1981) cert.
denied, 454 U.S. 1031, 102 S. Ct. 567, 70 L. Ed. 2d 474
(1981)).
“Generally, a district court may not consider any
material beyond the pleadings in ruling on a Rule 12(b)
(6) motion.” Hal Roach Studios, Inc. v. Richard Feiner
& Co., 896 F.2d 1542, 1555 n. 19 (9th Cir. 1990) (citations
omitted). However, a court may consider material which is
properly submitted as part of the complaint and matters
which may be judicially noticed pursuant to Federal Rule
of Evidence 201 without converting the motion to dismiss
into a motion for summary judgment. See, e.g., id.; Branch
v. Tunnel, 14 F.3d 449, 454 (9th Cir. 1994).
III.

Discussion

The FCA imposes penalties against any person who (1)
“knowingly presents, or causes to be presented, a false or
fraudulent claim for payment or approval”; (2) “knowingly
makes, uses, or causes to be made or used, a false record
or statement material to a false or fraudulent claim”; (3)
“knowingly makes, uses, or causes to be made or used,
a false record or statement material to an obligation to
pay or transmit money or property to the Government, or
knowingly conceals or knowingly and improperly avoids
or decreases an obligation to pay or transmit money or

39a
Appendix B
property to the Government”; or (4) conspires to commit
any of these violations. 31 U.S.C. § 3729(a)(1)(A)-(C), (G).
A “claim includes direct requests for government payment
as well as reimbursement requests made to the recipients
of federal funds under a federal benefits program.” United
States ex. rel. Campie v. Gilead Scis., Inc., 862 F.3d 890,
899 (9th Cir. 2017). The FCA permits individuals to sue
on behalf of the Government to enforce the statute. 31
U.S.C. § 3730(b).
To prevail on a claim under the FCA, a plaintiff
must demonstrate: “(1) a false statement or fraudulent
course of conduct; (2) made with scienter; (3) that was
material, causing (4) the [G]overnment to pay out or
forfeit moneys due.” Campie, 862 F.3d at 899 (internal
citation and quotation marks omitted). “It is not enough
to allege regulatory violations . . . rather, the false claim
or statement must be the sine qua non of receipt of .
. . funding.” Id. (internal citation and quotation marks
omitted). Courts broadly construe the FCA and have
recognized a number of schemes “that attach potential
[FCA] liability to claims for payment that are not explicitly
and/or independently false.” Id. (internal citation and
quotation marks omitted).
The FCA recognizes two types of actionable false
claims-factually false claims and legally false claims. A
plaintiff who relies on a legally false claim theory must
prove the defendant’s claim is false because the defendant
certified to a government agency that it complied with
laws, rules, or regulations governing the reimbursement
of claims or other provision of benefits when it did not.

40a
Appendix B
United States ex rel. Hopper v. Anton, 91 F.3d 1261, 1266
(9th Cir. 1996). A legally false claim can rest on a theory
of express false certification or implied false certification.
Ms. Winter does not allege that Defendants billed the
Government for services that were never provided-i.e.,
a “factually false” claim-or that Defendants expressly
certified that the claims submitted complied with a law,
rule, or regulation as part of the claims process. Rather,
Ms. Winter’s FCA claims are based on an implied false
certification theory. Opp’n at 19.
“Implied false certification occurs when a defendant
has previously undertaken to expressly comply with a law,
rule, or regulation, and that obligation is implicated by
submitting a claim for payment even though a certification
of compliance is not required in the process of submitting
the claim.” Ebeid ex rel. United States v. Lungwitz, 616
F.3d 993, 998 (9th Cir. 2010). “[I]t is the false certification
of compliance which creates liability when certification
is a prerequisite to obtaining a government benefit.”
Id. (internal citation and quotation marks omitted). The
Supreme Court recently held that two conditions must
be satisfied to prevail on an implied false certification
theory: (1) the claim must not merely request payment,
but also must make specific representations about the
goods or services provided; and (2) the defendant’s failure
to disclose non-compliance with a material statutory,
regulatory, or contractual requirement must “make[ ]
those representations misleading half-truths.” Universal
Health Servs., Inc. v. United States ex. rel. Escobar, 136
S. Ct. 1989, 2000-2002, 195 L. Ed. 2d 348 (2017); see also
Campie, 862 F.3d at 901. “The violation need not be of

41a
Appendix B
a contractual, statutory, or regulatory provision that
the Government expressly designated as a condition
of payment.” Campie, 862 F.3d at 901. “However, the
misrepresentation must be material to the Government’s
payment decision.” Id. (internal citation and quotation
marks omitted). Although the Supreme Court clarified
“the conditions upon which an implied false certification
claim can be made [the elements of an FCA claim] remain
the same.” Id.
Defendants move to dismiss Ms. Winter’s FCA claims
on the grounds that: (1) Ms. Winter cannot demonstrate
that they submitted claims based on objectively false
statements; and (2) Ms. Winter cannot show that the
alleged false statements were material to the Government’s
decision to pay the claims.
A.

FCA Claims as Alleged in the First and Second
Causes of Action
1.

Ms. Winter Cannot Establish Defendants
Submitted Objectively False Claims

Defendants argue that Ms. Winter’s FCA claims must
be dismissed because her theory of liability fails as a
matter of law given that she has not alleged an objectively
false claim. The Court agrees. The FCA only imposes
liability on those who make a false or fraudulent statement.
Although the statute does not define these terms, the
Ninth Circuit has cautioned that falsity under the FCA
“does not mean scientifically untrue”, rather, it means “a
lie”. Wang v. FMC Corp., 975 F.2d 1412, 1421 (9th Cir.

42a
Appendix B
1992). Thus, at minimum, to prevail on an FCA claim, a
plaintiff must show that a defendant knowingly made an
objectively false representation to the Government that
caused the Government to remit payment. United States
v. St. Mark’s Hosp., 2017 U.S. Dist. LEXIS 8167, 2017 WL
237615, at *9 (D. Utah Jan. 19, 2017); see also Hagood v.
Sonoma Cty. Water Agency, 81 F.3d 1465, 1477-78 (9th
Cir. 1996).
In the SAC, Ms. Winter cites the Medicare statutes and
regulations that set forth the criteria that a physician must
consider when determining whether to admit a patient
for inpatient hospital services. Specifically, Ms. Winter
relies on the provisions of the statutes and regulations
that require a healthcare provider to submit a certification
with a request for payment for services stating that the
services were medically necessary. Ms. Winter also relies
on the Medicare statutes and regulations that provide
that Medicare will not pay for expenses incurred for
items or services that are not medically necessary for the
diagnosis or treatment of a beneficiary’s illness or injury.
Accordingly, Ms. Winter’s FCA claims are based on her
contention that Defendants represented that the services
provided to RollinsNelson Patients were medically
necessary and that these representations were false.
Ms. Winter’s contention that the medical provider’s
certifications were false is based on her own after-thefact review of Tri-City’s admission records. However, the
fact that Ms. Winter reached a different conclusion on the
issue of medical necessity does not render the provider’s
certification false. “[W]hen two or more medical experts

43a
Appendix B
look at the same medical records and reach different
conclusions about whether those medical records” support
a physician’s decision to certify a patient for admission,
“all that exists is a difference of opinion.” United States
v. AseraCare Inc., 176 F. Supp. 3d 1282, 1285 (N.D. Ala.
2016); see also St. Mark’s Hosp., 2017 U.S. Dist. LEXIS
8167, 2017 WL 237615, at *9. “This difference of opinion”
among medical professionals regarding patients’ eligibility
for admission alone is not sufficient to demonstrate falsity.
AseraCare, 176 F. Supp. 3d at 1285. Indeed, “expressions
of opinions, scientific judgments, or statements as to
conclusions about which reasonable minds may differ
cannot be false” for purposes of an FCA claim. United
States ex rel. Roby v. The Boeing Co., 100 F. Supp. 2d 619,
625 (S.D. Ohio 2000).
Moreover, as several courts have held, liability for
an FCA violation may not be premised on subjective
interpretations of imprecise statutory language such as
“medically reasonable and necessary.” St. Mark’s Hosp.,
2017 U.S. Dist. LEXIS 8167, 2017 WL 237615, at *9
(collecting cases). Ms. Winter alleges she believes that
many of the admissions were medically unreasonable and
unnecessary, for example, because the patients’ conditions
were not severe enough to support inpatient admission.
However these allegations are based on subjective medical
opinions that cannot be proven to be objectively false.
In addition, Ms. Winter relies heavily on the InterQual
criteria and erroneously suggests that they are dispositive
in determining when it is medically necessary to admit
a patient for inpatient hospital services. In doing so, Ms.

44a
Appendix B
Winter improperly equates the InterQual criteria with
the medical necessity standard imposed by Medicare.
Medicare does not require compliance with the InterQual
criteria before a physician can certify an inpatient
admission and related services as medically necessary.
Thus, requesting payment for services rendered that
do not satisfy the InterQual criteria cannot amount to
a fraudulent scheme under the FCA. See e.g., Universal
Health Srvs., 136 S. Ct. at 1999-2001 (“[t]he term medical
necessity does not impart a qualitative element mandating
a particular standard of medical care and [the relator] does
not point to any legal authority requiring [the court] to
read such a mandate into the form.”). Moreover, Ms. Winter
admits that the InterQual criteria are merely a collection
of data and represent a consensus of medical professionals’
opinions. Thus, even assuming there is factual support for
Ms. Winter’s allegation that Defendants did not satisfy the
relevant InterQual criteria when admitting the patients,
this does not demonstrate that the providers’ certifications
that the admissions and relevant services were medically
necessary were objectively false. Accordingly, the Court
concludes that Ms. Winter’s first two FCA claims fail as
a matter of law and must be dismissed.
2.

Ms. Winter Cannot Establish the Failure
to Follow InterQual Criteria Is Material
to the Government’s Payment

Defendants also argue that Ms. Winter cannot
demonstrate that the alleged false statements were
material. Under the FCA, a false statement is material
if it has “a natural tendency to influence, or be capable

45a
Appendix B
of inf luencing, the payment or receipt of money or
property.” Campie, 862 F.3d at 904-05. As the Supreme
Court recently confirmed, the “materiality standard is
demanding.” Universal Health Servs., 136 S. Ct. at 2003.
The key question is whether the government is likely to
attach significance to the requirement in deciding whether
to tender payment. Id.
In an effort to establish materiality, Ms. Winter alleges
that the InterQual criteria can be relied on to perform a
secondary review of the appropriateness of the current
or proposed level of care, including whether inpatient
admission is medically necessary. In addition, Ms. Winter
alleges that CMS uses the InterQual criteria when auditing
and inspecting hospitals. Based on these allegations, Ms.
Winter argues the failure to meet the InterQual criteria
must have an impact on the Government’s actual or likely
behavior-i.e., because CMS uses InterQual criteria when
auditing or inspecting hospitals. Mot. 18. The Court
disagrees. The plain language of the Medicare statutes
and regulations relied on by Ms. Winter do not support
her argument that failure to meet InterQual criteria is
material to the Government’s decision to pay the claims.
There is no mention of the InterQual criteria in any of the
relevant statutes or regulations, and Ms. Winter has not
cited to any other law, statute, or regulation that suggests
that admission is not medically necessary simply because
it does not meet the InterQual criteria. Moreover, the
fact that CMS uses InterQual criteria when auditing or
inspecting hospitals does not assist Ms. Winter’s position
because as the Medicare Program Integrity Manual
Guidance states:

46a
Appendix B
CM S cont r a c t or s a r e not r e qu i r e d t o
automatically deny a claim that does not
meet the admission guidelines of a screening
tool. In all cases, in addition to screening
instruments, the reviewer shall apply his/her
own clinical judgment to make a medical review
determination based on the documentation in
the medical record.
CMS, News Flash: Guidance on Hospital Inpatient
Admission Decisions, MLN No. SE 1037 Revised (July
31, 2012). Therefore, the Court concludes that Ms. Winter
cannot establish that the failure to satisfy InterQual
criteria would influence the Government’s decision to pay
the claims.
Accordingly, the Court GRANTS Defendants’ Motions
to Dismiss Ms. Winter’s First and Second causes of action
without leave to amend.
B. Conspiracy Claim
To maintain a claim for conspiracy under 31 U.S.C.
Section 3729(a)(1)(C), a plaintiff must show: “(1) that the
defendant conspired with one or more persons to get
a false or fraudulent claim paid by the United States;
(2) that one or more of the conspirators performed any
act to effect the object of the conspiracy; and (3) that the
United States suffered damages as a result of the false
or fraudulent claim.” Corsello v. Lincare, Inc., 428 F.3d
1008, 1014 (11th Cir. 2005) (internal citation and quotation
marks omitted).

47a
Appendix B
Because the Court concludes that Ms. Winter cannot
demonstrate that Defendants submitted false claims based
on the certifications that the inpatient services provided
were medically necessary, Ms. Winter’s conspiracy claim
fails as a matter of law. See, e.g., U.S. ex rel. Woodruff v.
Haw. Pac. Health, 560 F. Supp. 2d 988, 1004 (D. Haw. 2008)
(holding that absent evidence of a false claim as alleged,
the defendants cannot have conspired to have a false claim
paid by the Government); United States ex rel. Fent v. L-3
Commc’ns Aero Tech. LLC, 2007 U.S. Dist. LEXIS 81976,
2007 WL 3283689, at *5 (N.D. Okla. Nov. 2, 2007) (holding
that there can be no conspiracy “to submit a false claim
if no false claim has been shown to exist”). Accordingly,
the Court GRANTS Defendants’ Motions to Dismiss Ms.
Winter’s conspiracy claim without leave to amend.
C.

Retaliation Claim

The S&W Defendants and the RollinsNelson
Defendants argue that Ms. Winter’s retaliation claim
must be dismissed because they were not her employer
and, therefore, they cannot be liable for retaliation under
Section 3730(h). Since 1986, the FCA has protected
“whistleblowers” from retaliation “by their employers.”
Moore v. Cal. Inst. of Tech. Jet Propulsion Lab, 275
F.3d 838, 845 (9th Cir. 2002) (emphasis added). Although
Congress removed the term “employer” from Section
3730(h) of the FCA when it amended the statute in 2009,
courts have subsequently determined that the amendment
was intended to broaden the category of employees eligible
for whistleblower protection (to include contractors and
agents), not to broaden the class of persons subject to

48a
Appendix B
liability under this Section. U.S. ex rel. Lupo v. Quality
Assurance Servs., Inc., 242 F. Supp. 3d 1020, 1029 (S.D.
Cal. 2017); see, e.g., Wichansky v. Zownie, 2014 U.S. Dist.
LEXIS 9586, 2014 WL 289924, at *3-5 (D. Ariz. Jan. 24,
2014); Lipka v. Advantage Health Grp., Inc., 2013 WL
5304013, 2013 WL 5304013, at *12 (D. Kan. Sept. 20, 2013).
Accordingly, the Court agrees with numerous other courts
that have found that liability under Section 3730(h) does
not extend to individuals, such as co-workers, supervisors,
or corporate officers who lack an employment relationship
with a plaintiff. Accord United States v. Kiewit Pac. Co.,
41 F. Supp. 3d 796, 814 (N.D. Cal. 2014); Wichansky, 2014
U.S. Dist. LEXIS 9586, 2014 WL 289924, at *3-5.
Ms. Winter argues that even if the statute is limited
to claims against employers, the S&W Defendants and
RollinsNelson Defendants are liable under Section
3730(h) as employers because they exercised dominion
and control over her. However, the vague and conclusory
allegations she relies on demonstrate, at best, that the
S&W Defendants and RollinsNelson Defendants may
have participated in the decision to terminate her merely
because of the individuals’ corporate positions and the
corporations’ ownership of Sycamore, which oversaw
operations at Tri-City. These allegations are not sufficient
to show that Ms. Winter had the required employment
relationship with these defendants.1 Indeed, Ms. Winter
candidly admits that Tri-City was her employer. SAC ¶ 170.
1. Ms. Winter alleges that there is an alter ego relationship
between S&W, Weiner, and RollinsNelson and between Rollins,
Nelson, and RollinsNelson. However, she does not allege that any
of these defendants have an alter ego relationship with Tri-City.

49a
Appendix B
Accordingly, the Court concludes that Ms. Winter cannot
maintain a retaliation claim against the S&W Defendants
or the RollinsNelson Defendants and, therefore, the Court
GRANTS their Motions to Dismiss the retaliation claim
without leave to amend.
D.

Leave to Amend Would Be Futile

Where a motion to dismiss is granted, a district court
must decide whether to grant leave to amend. Generally,
the Ninth Circuit has a liberal policy favoring amendments
and, thus, leave to amend should be freely granted. See,
e.g., DeSoto v. Yellow Freight Sys., Inc., 957 F.2d 655, 658
(9th Cir. 1992). However, a Court does not need to grant
leave to amend in cases where the Court determines
that permitting a plaintiff to amend would be an exercise
in futility. See, e.g., Rutman Wine Co. v. E. & J. Gallo
Winery, 829 F.2d 729, 738 (9th Cir. 1987) (“Denial of leave
to amend is not an abuse of discretion where the pleadings
before the court demonstrate that further amendment
would be futile.”).
In light of the foregoing, the Court concludes that Ms.
Winter’s claims “cannot be saved by any amendment.”
Miller v. Yokohama Tire Corp., 358 F.3d 616, 622 (9th
Cir. 2004). Ms. Winter has had multiple opportunities to
amend her original complaint and has not suggested any
facts that she could add that could save her claims, and
the Court cannot conceive of any amendment. Because Ms.
Winter’s claims rest entirely on her legally faulty theory
that admitting patients that do not satisfy InterQual
criteria gives rise to a false claim, the Court concludes

50a
Appendix B
that it would be futile to permit Ms. Winter to further
amend her complaint. See id. (“[w]here the plaintiff has
previously filed an amended complaint . . . [a] district
court’s discretion to deny leave to amend is particularly
broad.”) (internal citation and quotation marks omitted).
IV. Conclusion
For all the foregoing reasons, Defendants’ Motions
are GRANTED. All of Ms. Winter’s claims against the
S&W Defendants, the RollinsNelson Defendants and Dr.
Pascual are DISMISSED, without leave to amend. In
light of the Court’s ruling on the merits of Ms. Winter’s
claims and because identical law and facts on the issue of
objective falsity apply to all of the defendants, the Court
also concludes that non-moving defendants Rafaelito
Victoria, M.D., Arnold Ling, M.D., Cynthia MillerDobalian, M.D., Edgardo Binoya, M.D., Namiko Nerio,
M.D., and Manuel Sacapano, M.D. are entitled to dismissal
of all of Ms. Winter’s claims against them and that nonmoving defendant Tri-City is entitled to dismissal of all
of Ms. Winter’s claims against it except for the retaliation
claim. Accordingly, the Court exercises its discretion and
sua sponte DISMISSES, without leave to amend, all of
Ms. Winter’s claims against the non-moving defendants
except Ms. Winter’s retaliation claim against Tri-City.
See Omar v. Sea-Land Serv., Inc., 813 F.2d 986 (9th Cir.
1987) (“A trial court may dismiss a claim sua sponte
under Fed[eral Rule of Civil Procedure] 12(b)(6). . . Such a
dismissal may be made without notice where the claimant
cannot possibly win relief.”); see also Bonny v. Society
of Lloyd’s, 3 F.3d 156, 161 (7th Cir. 1993) (“A court may

51a
Appendix B
grant a motion to dismiss even as to nonmoving defendants
where the nonmoving defendants are in a position similar
to that of moving defendants or where the claims against
all defendants are integrally related.”). Accordingly, all
claims in this action are DISMISSED, with prejudice,
except Ms. Winter’s retaliation claim against Tri-City. 2
Ms. Winter’s counsel shall advise the Court on or before
January 3, 2018 whether Ms. Winter intends to pursue her
retaliation claim in the bankruptcy court or in this Court.
IT IS SO ORDERED.

2. Although Defendants have raised several other persuasive
arguments in support of their motions-including whether Ms. Winter alleged
the required elements of her FCA claims, specifically scienter, with the
required particularity and specificity required by Federal Rules of Civil
Procedure 8 and 9(b)-the Court concludes it is not necessary to address
these arguments in light of its ruling.

52a
Appendix
C
APPENDIX C — ORDER
DENYING
REHEARING
OF THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT, FILED JULY 6, 2020
UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT
No. 18-55020
JANE WINTER, EX REL.
UNITED STATES OF AMERICA,
Plaintiff-Appellant,
v.
GARDENS REGIONAL HOSPITAL AND
MEDICAL CENTER, INC., DBA TRI-CITY
REGIONAL MEDICAL CENTER, A CALIFORNIA
CORPORATION; et al.,
Defendants-Appellees.
July 6, 2020, Filed
D.C. No. 2:14-cv-08850-JFW-E
Central District of California, Los Angeles

53a
Appendix C
ORDER
Before: RAWLINSON, OWENS, and BENNETT, Circuit
Judges.
The panel has voted to deny the petitions for panel
rehearing and petitions for rehearing en banc.
The full court has been advised of the petitions for
rehearing en banc and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P.
35(f).
The petitions for panel rehearing and petitions for
rehearing en banc are DENIED. (Dkt. 99, 100, 101).

54a
Appendix AND
D
APPENDIX D — STATUTES
REGULATIONS

31 USCS § 3729
3729. False Claims
(a) Liability for certain acts.
(1) In general. Subject to paragraph (2), any person
who—
(A) knowingly presents, or causes to be presented,
a false or fraudulent claim for payment or
approval;
(B) knowingly makes, uses, or causes to be made
or used, a false record or statement material
to a false or fraudulent claim;
(C) c on s p i r e s t o c o m m it a v iol a t ion of
subparagraph (A), (B), (D), (E), (F), or (G);
(D) has possession, custody, or control of
property or money used, or to be used, by
the Government and knowingly delivers, or
causes to be delivered, less than all of that
money or property;
(E) is authorized to make or deliver a document
certifying receipt of property used, or to be
used, by the Government and, intending to
defraud the Government, makes or delivers

55a
Appendix D
the receipt without completely knowing that
the information on the receipt is true;
(F) knowingly buys, or receives as a pledge of an
obligation or debt, public property from an
officer or employee of the Government, or a
member of the Armed Forces, who lawfully
may not sell or pledge property; or
(G) knowingly makes, uses, or causes to be made
or used, a false record or statement material
to an obligation to pay or transmit money or
property to the Government, or knowingly
conceals or knowingly and improperly avoids
or decreases an obligation to pay or transmit
money or property to the Government,
is liable to the United States Government
for a civil penalty of not less than $5,000 and
not more than $10,000, as adjusted by the
Federal Civil Penalties Inflation Adjustment
Act of 1990 (28 U.S.C. 2461 note; Public
Law 104-4101), plus 3 times the amount of
damages which the Government sustains
because of the act of that person.
(2) Reduced damages. If the court finds that—

1. So in original. Probably should read “Public Law 101-410”.
31 U.S.C.A. § 3729, 31 USCA § 3729
Current through P.L. 116-158.

56a
Appendix D
(A) the person committing the violation of this
subsection furnished officials of the United
States responsible for investigating false
claims violations with all information known
to such person about the violation within 30
days after the date on which the defendant
first obtained the information;
(B) such person fully cooperated with any
Government investigation of such violation;
and
(C) at the time such person furnished the
United States with the information about
the violation, no criminal prosecution,
civil action, or administrative action had
commenced under this title with respect to
such violation, and the person did not have
actual knowledge of the existence of an
investigation into such violation,
the court may assess not less than 2 times the
amount of damages which the Government
sustains because of the act of that person.
(3) Costs of civil actions. A person violating this
subsection shall also be liable to the United States
Government for the costs of a civil action brought
to recover any such penalty or damages.
(b) Definitions. For purposes of this section—
(1) the terms “knowing” and “knowingly”—

57a
Appendix D
(A) mean that a person, w ith respect t o
information—
(i) has actual knowledge of the information;
(ii) acts in deliberate ignorance of the truth
or falsity of the information; or
(iii) acts in reckless disregard of the truth
or falsity of the information; and
(B) require no proof of specific intent to defraud;
(2) the term “claim”—
(A) means any request or demand, whether
under a contract or otherwise, for money
or property and whether or not the United
States has title to the money or property,
that—
(i) is presented to an officer, employee, or
agent of the United States; or
(ii) is made to a contractor, grantee, or other
recipient, if the money or property is to
be spent or used on the Government’s
behalf or to advance a Government
program or interest, and if the United
States Government—

58a
Appendix D
(I) provides or has provided any portion
of the money or property requested
or demanded; or
(II) w ill reimburse such contractor,
grantee, or other recipient for any
portion of the money or property
which is requested or demanded; and
(B) does not include requests or demands for
money or property that the Government has
paid to an individual as compensation for
Federal employment or as an income subsidy
with no restrictions on that individual’s use
of the money or property;
(3) the term “obligation” means an established duty,
whether or not fixed, arising from an express or
implied contractual, grantor-grantee, or licensorlicensee relationship, from a fee-based or similar
relationship, from statute or regulation, or from
the retention of any overpayment; and
(4) the term “material” means having a natural
tendency to influence, or be capable of influencing,
the payment or receipt of money or property.
(c) Exemption from disclosure. Any information
furnished pursuant to subsection (a)(2) shall be
exempt from disclosure under section 552 of title 5.

59a
Appendix D
(d) Exclusion. This section does not apply to claims,
records, or statements made under the Internal
Revenue Code of 1986 [26 USCS §§ 1 et seq.].

60a
Appendix D
42 USCA § 1395y
§ 1395y. Exclusions from coverage and medicare as
secondary payer
Effective: October 24, 2018
(a) Items or services specifically excluded.
Notwithstanding any other provision of this title [42
USCS §§ 1395 et seq.], no payment may be made
under part A or part B [42 USCS §§ 1395c et seq. or
1395j et seq.] for any expenses incurred for items or
services—
(1)(A) which, except for items and services described
in a succeeding subparagraph or additional
preventive services (as described in section
1861(ddd)(1) [42 USCS § 1395x(ddd)(1)]), are not
reasonable and necessary for the diagnosis or
treatment of illness or injury or to improve the
functioning of a malformed body member,
(B) in the case of items and services described in
section 1861(s)(10) [42 USCS § 1395x(s)(10)],
which are not reasonable and necessary for the
prevention of illness,
(C) in the case of hospice care, which are not
reasonable and necessary for the palliation or
management of terminal illness,

61a
Appendix D
(D) in the case of clinical care items and services
provided with the concurrence of the Secretary
and with respect to research and experimentation
conducted by, or under contract w ith, the
Medicare Payment Advisory Commission or
the Secretary, which are not reasonable and
necessary to carry out the purposes of section
1886(e)(6) [42 USCS § 1395ww(e)(6)],
(E) in the case of research conducted pursuant to
section 1142 [42 USCS § 1320b-12], which is
not reasonable and necessary to carry out the
purposes of that section,
(F) in the case of screening mammography, which
is performed more frequently than is covered
under section 1834(c)(2) [42 USCS § 1395m(c)(2)]
or which is not conducted by a facility described in
section 1834(c)(1)(B) [42 USCS § 1395m(c)(1)(B)],
in the case of screening pap smear and screening
pelvic exam, which is performed more frequently
than is provided under section 1861(nn) [42 USCS
§ 1395x(nn)], and, in the case of screening for
glaucoma, which is performed more frequently
than is provided under section 1861(uu) [42 USCS
§ 1395x(uu)],
(G) in the case of prostate cancer screening tests (as
defined in section 1861(oo) [42 USCS § 1395x(oo)]),
which are performed more frequently than is
covered under such section,

62a
Appendix D
(H) in the case of colorectal cancer screening tests,
which are performed more frequently than
is covered under section 1834(d) [42 USCS
§ 1395m(d)],
(I) the frequency and duration of home health
ser vices which are in excess of normative
guidelines that the Secretary shall establish by
regulation,
(J) in the case of a drug or biological specified in
section 1847A(c)(6)(C) [42 USCS § 1395w-3a(c)
(6)(C)] for which payment is made under part B
[42 USCS §§ 1395j et seq.] that is furnished in a
competitive area under section 1847B [42 USCS
§ 1395w-3b], that is not furnished by an entity
under a contract under such section,
(K) in the case of an initial preventive physical
examination, which is performed more than 1
year after the date the individual’s first coverage
period begins under part B [42 USCS §§ 1395j et
seq.],
(L) in the case of cardiovascular screening blood
tests (as defined in section 1861(xx)(1) [42 USCS
§ 1395x(xx)(1)]), which are performed more
frequently than is covered under section 1861(xx)
(2) [42 USCS § 1395x(xx)(2)],
(M) in the case of a diabetes screening test (as defined
in section 1861(yy)(1) [42 USCS § 1395x(yy)

63a
Appendix D
(1)]), which is performed more frequently than
is covered under section 1861(yy)(3) [42 USCS §
1395x(yy)(3)],
(N) in the case of ultrasound screening for abdominal
aortic aneurysm which is performed more
frequently than is provided for under section
1861(s)(2)(AA) [42 USCS § 1395x(s)(2)(AA)],
(O) in the case of kidney disease education services
(as defined in paragraph (1) of section 1861(ggg)
[42 USCS § 1395x(ggg)]), which are furnished in
excess of the number of sessions covered under
paragraph (4) of such section, and
(P) in the case of personalized prevention plan
services (as defined in section 1861(hhh)(1) [42
USCS § 1395x(hhh)(1)]), which are performed
more frequently than is covered under such
section;
(2) for which the individual furnished such items or
services has no legal obligation to pay, and which
no other person (by reason of such individual’s
membership in a prepayment plan or otherwise)
has a legal obligation to provide or pay for, except
in the case of Federally qualified health center
services;
(3) which are paid for directly or indirectly by a
governmental entity (other than under this
Act and other than under a health benefits or

64a
Appendix D
insurance plan established for employees of such
an entity), except in the case of rural health clinic
services, as defined in section 1861(aa)(1) [42
USCS § 1395x(aa)(1)], in the case of Federally
qualified health center services, as defined in
section 1861(aa)(3) [42 USCS § 1395x(aa)(3)], in the
case of services for which payment may be made
under section 1880(e) [42 USCS § 1395qq(e)], and
in such other cases as the Secretary may specify;
(4) which are not provided within the United States
(except for inpatient hospital services furnished
outside the United States under the conditions
described in section 1814(f) [42 USCS § 1395(f)]
and, subject to such conditions, limitations, and
requirements as are provided under or pursuant
to this title [42 USCS §§ 1395 et seq.], physicians’
services and ambulance services furnished an
individual in conjunction with such inpatient
hospital services but only for the period during
which such inpatient hospital services were
furnished);
(5) which are required as a result of war, or of an act
of war, occurring after the effective date of such
individual’s current coverage under such part [42
USCS §§ 1395c et seq. or 1395j et seq.];
(6) which constitute personal comfort items (except,
in the case of hospice care, as is otherwise
permitted under paragraph (1)(C));

65a
Appendix D
(7) where such expenses are for routine physical
checkups, eyeglasses (other than eyewear
descr ibed in section 1861(s)(8) [4 2 USCS
§ 1395x(s)(8)]) or eye examinations for the purpose
of prescribing, fitting, or changing eyeglasses,
procedures performed (during the course of any
eye examination) to determine the refractive
state of the eyes, hearing aids or examinations
therefor, or immunizations (except as otherwise
allowed under section 1861(s)(10) [42 USCS
§ 1395x(s)(10)] and subparagraph (B), (F), (G),
(H), (K), or (P) of paragraph (1));
(8) where such expenses are for orthopedic shoes or
other supportive devices for the feet, other than
shoes furnished pursuant to section 1861(s)(12)
[42 USCS § 1395x(s)(12)];
(9) where such expenses are for custodial care
(except, in the case of hospice care, as is otherwise
permitted under paragraph (1)(C));
(10) where such expenses are for cosmetic surgery
or are incurred in connection therewith, except
as required for the prompt repair of accidental
injury or for improvement of the functioning of
a malformed body member;
(11) where such expenses constitute charges imposed
by immediate relatives of such individual or
members of his household;

66a
Appendix D
(12) where such expenses a re for ser v ices in
connection with the care, treatment, filling,
removal, or replacement of teeth or structures
d i r e c t ly s upp or t i n g t e et h , e xc ept t h at
payment may be made under part A [42 USCS
§§ 1395c et seq.] in the case of inpatient hospital
services in connection with the provision of such
dental services if the individual, because of his
underlying medical condition and clinical status
or because of the severity of the dental procedure,
requires hospitalization in connection with the
provision of such services;
(13) where such expenses are for—
(A) the treatment of flat foot conditions and the
prescription of supportive devices therefor,
(B) the treatment of subluxations of the foot, or
(C) routine foot care (including the cutting or
removal of corns or calluses, the trimming
of nails, and other routine hygienic care);
(14) which are other than physicians’ services (as
defined in regulations promulgated specifically
for purposes of this parag raph), ser vices
described by section 1861(s)(2)(K) [42 USCS
§ 1395x(s)(2)(K)], certified nurse-midwife services,
qualified psychologist services, and services of a
certified registered nurse anesthetist, and which
are furnished to an individual who is a patient

67a
Appendix D
of a hospital or critical access hospital by an
entity other than the hospital or critical access
hospital, unless the services are furnished under
arrangements (as defined in section 1861(w)(1) [42
USCS § 1395x(w)(1)]) with the entity made by the
hospital or critical access hospital;
(15)(A) which are for services of an assistant at surgery

in a cataract operation (including subsequent
insertion of an intraocular lens) unless, before
the surgery is performed, the appropriate
quality improvement organization (under part
B of title XI [42 USCS §§ 1320c et seq.]) or a
carrier under section 1842 [42 USCS § 1395u]
has approved of the use of such an assistant in
the surgical procedure based on the existence of
a complicating medical condition, or

(B) which are for services of an assistant at surgery to
which section 1848(i)(2)(B) [42 USCS § 1395w-4(i)
(2)(B)] applies;
(16) in the case in which funds may not be used for
such items and services under the Assisted
Suicide Funding Restriction Act of 1997;
(17) where the expenses are for an item or service
furnished in a competitive acquisition area (as
established by the Secretary under section
1847(a) [42 USCS § 1395w-3(a)]) by an entity
other than an entity with which the Secretary has
entered into a contract under section 1847(b) [42

68a
Appendix D
USCS § 1395w-3(b)] for the furnishing of such an
item or service in that area, unless the Secretary
finds that the expenses were incurred in a case of
urgent need, or in other circumstances specified
by the Secretary;
(18) which are covered skilled nursing facility services
described in section 1888(e)(2)(A)(i) [42 USCS
§ 1395yy(e)(2)(A)(i)] and which are furnished to
an individual who is a resident of a skilled nursing
facility during a period in which the resident is
provided covered post-hospital extended care
services (or, for services described in section
1861(s)(2)(D) [42 USCS § 1395x(s)(2)(D)], which
are furnished to such an individual without
regard to such period), by an entity other than
the skilled nursing facility, unless the services
are furnished under arrangements (as defined in
section 1861(w)(1) [42 USCS § 1395x(w)(1)]) with
the entity made by the skilled nursing facility;
(19) which are for items or ser vices which are
furnished pursuant to a pr ivate contract
described in section 1802(b) [42 USCS § 1395a(b)];
(20) in the case of outpatient physical therapy
services, outpatient speech-language pathology
services, or outpatient occupational therapy
services furnished as an incident to a physician’s
professional services (as described in section
1861(s)(2)(A) [42 USCS § 1395x(s)(2)(A)]), that
do not meet the standards and conditions (other

69a
Appendix D
than any licensing requirement specified by the
Secretary) under the second sentence of section
1861(p) [42 USCS § 1395x(p)] (or under such
sentence through the operation of subsection
(g) or (ll)(2) of section 1861 [42 USCS § 1395x])
as such standards and conditions would apply to
such therapy services if furnished by a therapist;
(21) where such expenses are for home health services
(including medical supplies described in section
1861(m)(5) [42 USCS § 1395x(m)(5)], but excluding
durable medical equipment to the extent provided
for in such section) furnished to an individual who
is under a plan of care of the home health agency
if the claim for payment for such services is not
submitted by the agency;
(22) subject to subsection (h), for which a claim is
submitted other than in an electronic form
specified by the Secretary;
(23) which are the technical component of advanced
diagnostic imag ing ser vices descr ibed in
section 1834(e)(1)(B) [42 USCS § 1395m(e)(1)
(B)] for which payment is made under the fee
schedule established under section 1848(b) [42
USCS § 1395w-4(b)] and that are furnished by a
supplier (as defined in section 1861(d) [42 USCS
§ 1395x(d)]), if such supplier is not accredited by
an accreditation organization designated by the
Secretary under section 1834(e)(2)(B) [42 USCS
§ 1395m(e)(2)(B)];

70a
Appendix D
(24) where such expenses are for renal dialysis
services (as defined in subparagraph (B) of
section 1881(b)(14) [42 USCS § 1395rr(b)(14)])
for which payment is made under such section
unless such payment is made under such section
to a provider of services or a renal dialysis facility
for such services; or
(25) not later than January 1, 2014, for which the
payment is other than by electronic funds
transfer (EFT) or an electronic remittance in a
form as specified in ASC X12 835 Health Care
Payment and Remittance Advice or subsequent
standard.
Paragraph (7) shall not apply to Federally qualified health
center services described in section 1861(aa)(3)(B) [42
USCS § 1395x(aa)(3)(B)].
In making a national coverage determination (as defined in
paragraph (1)(B) of section 1869(f) [42 USCS § 1395ff(f)])
the Secretary shall ensure consistent with subsection
(l) that the public is afforded notice and opportunity to
comment prior to implementation by the Secretary of
the determination; meetings of advisory committees with
respect to the determination are made on the record; in
making the determination, the Secretary has considered
applicable information (including clinical experience and
medical, technical, and scientific evidence) with respect
to the subject matter of the determination; and in the
determination, provide a clear statement of the basis
for the determination (including responses to comments

71a
Appendix D
received from the public), the assumptions underlying that
basis, and make available to the public the data (other than
proprietary data) considered in making the determination.
(b) Medicare as secondary payer.
(1) Requirements of group health plans.
(A) Working aged under group health plans.
(i) In general.
A group health plan—
(I) may not take into account that an
individual (or the individual’s spouse)
who is covered under the plan by
virtue of the individual’s current
employment status with an employer
is entitled to benefits under this
title under section 226(a) [42 USCS
§ 426(a)], and
(II) shall provide that any individual age
65 or older (and the spouse age 65
or older of any individual) who has
current employment status with
an employer shall be entitled to the
same benefits under the plan under
the same conditions as any such
individual (or spouse) under age 65.

72a
Appendix D
(ii) Exclusion of group health plan of a small
employer.
Clause (i) shall not apply to a group
health plan unless the plan is a plan of, or
contributed to by, an employer that has
20 or more employees for each working
day in each of 20 or more calendar weeks
in the current calendar year or the
preceding calendar year.
(iii) Exception for small employers in
multiemployer or multiple employer
group health plans.
Clause (i) also shall not apply with
respect to individuals enrolled in a
multiemployer or multiple employer
group health plan if the coverage of the
individuals under the plan is by virtue
of current employment status with an
employer that does not have 20 or more
individuals in current employment
status for each working day in each
of 20 or more calendar weeks in the
current calendar year and the preceding
calendar year; except that the exception
provided in this clause shall only apply
if the plan elects treatment under this
clause.

73a
Appendix D
(iv) Exception for individuals with end stage
renal disease.
Subparagraph (C) shall apply instead of
clause (i) to an item or service furnished
in a month to an individual if for the
month the individual is, or (without
regard to entitlement under section 226
[42 USCS § 426]) would upon application
be, entitled to benefits under section
226A [42 USCS § 426-1].
(v) “Group health plan” defined.
In this subparagraph, and subparagraph
(C), the term “group health plan” has
the meaning given such term in section
5000(b)(1) of the Internal Revenue Code
of 1986 [26 USCS § 5000(b)(1)], without
regard to section 5000(d) of such Code
[26 USCS § 5000(d)].
(B) Disabled individuals in large group health
plans.
(i) In general.
A large group health plan (as defined in
clause (iii)) may not take into account
that an individual (or a member of the
individual’s family) who is covered under
the plan by virtue of the individual’s

74a
Appendix D
current employment status with an
employer is entitled to benefits under
this title [42 USCS §§ 1395 et seq.] under
section 226(b) [42 USCS § 426(b)].
(ii) Exception for individuals with end stage
renal disease.
Subparagraph (C) shall apply instead of
clause (i) to an item or service furnished
in a month to an individual if for the
month the individual is, or (without
regard to entitlement under section 226
[42 USCS § 426]) would upon application
be, entitled to benefits under section
226A [42 USCS § 426-1].
(iii) “Large group health plan defined.”
In this subparagraph, the term “large
group health plan” has the meaning
given such term in section 5000(b)(2) of
the Internal Revenue Code of 1986 [26
USCS § 5000(b)(2)], without regard to
section 5000(d) of such Code [26 USCS
§ 5000(d)].
(C) Individuals with end stage renal disease.
A g r oup he a lt h pl a n (a s def i ne d i n
subparagraph (A)(v))—

75a
Appendix D
(i) may not take into account that an
individual is entitled to or eligible for
benefits under this title [42 USCS §§ 1395
et seq.] under section 226A [42 USCS §
426-1] during the 12-month period which
begins with the first month in which the
individual becomes entitled to benefits
under part A [42 USCS §§ 1395c et seq.]
under the provisions of section 226A [42
USCS § 426-1], or, if earlier, the first
month in which the individual would have
been entitled to benefits under such part
under the provisions of section 226A [42
USCS § 426-1] if the individual had filed
an application for such benefits; and
(ii) may not differentiate in the benefits it
provides between individuals having end
stage renal disease and other individuals
covered by such plan on the basis of the
existence of end stage renal disease, the
need for renal dialysis, or in any other
manner;
except that clause (ii) shall not
prohibit a plan from paying benefits
secondary to this title [42 USCS
§§ 1395 et seq.] when an individual
is entitled to or eligible for benefits
under this title [42 USCS §§ 1395
et seq.] under section 226A [42
USCS § 426 -1] after the end of

76a
Appendix D
the 12 -month per iod descr ibed
in clause (i). Effective for items
and services furnished on or after
February 1, 1991, and before the
date of enactment of the Balanced
Budget Act of 1997 [enacted Aug.
5, 19971], (with respect to periods
beginning on or after February 1,
1990), this subparagraph shall be
applied by substituting “18-month”
for “12-month” each place it appears.
Effective for items and services
furnished on or after the date of
enactment of the Balanced Budget
Act of 1997 [enacted Aug. 5, 1997] [,]
(with respect to periods beginning
on or after the date that is 18 months
prior to such date), clauses (i) and
(ii) shall be applied by substituting
“30-month” for “12-month” each
place it appears.
(D) Treatment of certain members of religious
orders.
In this subsection, an individual shall not be
considered to be employed, or an employee,
with respect to the performance of services
as a member of a religious order which are
considered employment only by virtue of an
1. So in original. The comma probably should not appear.

77a
Appendix D
election made by the religious order under
section 3121(r) of the Internal Revenue Code
of 1986 [26 USCS § 3121(r)].
(E) General provisions.
For purposes of this subsection:
(i) Aggregation rules.
(I) All employers treated as a single
employer under subsection (a) or (b)
of section 52 of the Internal Revenue
Code of 1986 [26 USCS § 52(a) or (b)]
shall be treated as a single employer.
(II) All employees of the members of an
affiliated service group (as defined
in section 414(m) of such Code [26
USCS § 414(m)]) shall be treated as
employed by a single employer.
(III)Leased employees (as defined in
section 414(n)(2) of such Code [26
USCS § 414(n)(2)]) shall be treated
as employees of the person for
whom they perform services to the
extent they are so treated under
section 414(n) of such Code [26 USCS
§ 414(n)].

78a
Appendix D
In applying sections of the Internal
Revenue Code of 1986 [26 USCS
§§ 1 et seq.] under this clause, the
Secretary shall rely upon regulations
and decisions of the Secretary of the
Treasury respecting such sections.
(ii) “Current employment status” defined.
An individual has “current employment
status” with an employer if the individual
is an employee, is the employer, or
is associated with the employer in a
business relationship.
(iii) Treatment of self-employed persons
as employers. The term “employer”
includes a self-employed person.
(F) Limitation on beneficiary liability. An
individual who is entitled to benefits under
this title [42 USCS §§ 1395 et seq.] and is
furnished an item or service for which such
benefits are incorrectly paid is not liable
for repayment of such benefits under this
paragraph unless payment of such benefits
was made to the individual.
(2) Medicare secondary payer.
(A) In general.

79a
Appendix D
Payment under this title [42 USCS §§ 1395 et
seq.] may not be made, except as provided in
subparagraph (B), with respect to any item
or service to the extent that—
(i) pay ment ha s b e en m a de , or c a n
reasonably be expected to be made,
with respect to the item or service as
required under paragraph (1), or
(ii) pay ment ha s b e en m a de 2 or c a n
reasonably be expected to be made 3
under a workmen’s compensation law
or plan of the United States or a State
or under an automobile or liability
insurance policy or plan (including a
self-insured plan) or under no fault
insurance.
In this subsection, the term “primary
plan” means a group health plan or
large group health plan, to the extent
that clause (i) applies, and a workmen’s
compensation law or plan, an automobile
or liability insurance policy or plan
(including a self-insured plan) or no
fault insurance, to the extent that clause
(ii) applies. An entity that engages in a
business, trade, or profession shall be
deemed to have a self-insured plan if it
carries its own risk (whether by a failure
2. So in original. Probably should be “made,”.

80a
Appendix D
to obtain insurance, or otherwise) in
whole or in part.
(B) Conditional payment.
(i) Authority to make conditional payment.
The Secretary may make payment
under this title with respect to an item
or service if a primary plan described
in subparagraph (A)(ii)3 [subpara. (A)]
has not made or cannot reasonably
be expected to make payment with
respect to such item or service promptly
(as determined in accordance with
regulations). Any such payment by
the Secretary shall be conditioned on
reimbursement to the appropriate Trust
Fund in accordance with the succeeding
provisions of this subsection.
(ii) Repayment required.
Subject to paragraph (9), a primary plan,
and an entity that receives payment
from a primary plan, shall reimburse
the appropriate Trust Fund for any
payment made by the Secretary under
this title [42 USCS §§ 1395 et seq.] with
respect to an item or service if it is
3. So in original. Probably should be “subparagraph (A)”.

81a
Appendix D
demonstrated that such primary plan
has or had a responsibility to make
payment with respect to such item or
service. A primary plan’s responsibility
for such payment may be demonstrated
by a judgment, a payment conditioned
upon the recipient’s compromise, waiver,
or release (whether or not there is a
determination or admission of liability)
of payment for items or services included
in a claim against the primary plan or
the primary plan’s insured, or by other
means. If reimbursement is not made
to the appropriate Trust Fund before
the expiration of the 60-day period
that begins on the date notice of, or
information related to, a primary plan’s
responsibility for such payment or other
information is received, the Secretary
may charge interest (beginning with
the date on which the notice or other
information is received) on the amount of
the reimbursement until reimbursement
is made (at a rate deter mined by
the Secretar y in accordance w ith
regulations of the Secretary of the
Treasury applicable to charges for late
payments).
(iii) Action by United States.

82a
Appendix D
In order to recover payment made under
this title [42 USCS §§ 1395 et seq.] for an
item or service, the United States may
bring an action against any or all entities
that are or were required or responsible
(directly, as an insurer or self-insurer,
as a third-party administrator, as an
employer that sponsors or contributes
to a group health plan, or large group
health plan, or otherwise) to make
payment with respect to the same item
or service (or any portion thereof) under
a primary plan. The United States may,
in accordance with paragraph (3)(A)
collect double damages against any such
entity. In addition, the United States
may recover under this clause from any
entity that has received payment from
a primary plan or from the proceeds of
a primary plan’s payment to any entity.
The United States may not recover from
a third-party administrator under this
clause in cases where the third-party
administrator would not be able to
recover the amount at issue from the
employer or group health plan and is
not employed by or under contract with
the employer or group health plan at the
time the action for recovery is initiated
by the United States or for whom it
provides administrative services due
to the insolvency or bankruptcy of the
employer or plan. An action may not

83a
Appendix D
be brought by the United States under
this clause with respect to payment
owed unless the complaint is filed not
later than 3 years after the date of
the receipt of notice of a settlement,
judgment, award, or other payment
made pursuant to paragraph (8) relating
to such payment owed.
(iv) Subrogation rights.
The United States shall be subrogated
(to the extent of payment made under
this title [42 USCS §§ 1395 et seq.] for
such an item or service) to any right
under this subsection of an individual or
any other entity to payment with respect
to such item or service under a primary
plan.
(v) Waiver of rights.
The Secretary may waive (in whole or in
part) the provisions of this subparagraph
in the case of an individual claim if the
Secretary determines that the waiver
is in the best interests of the program
established under this title [42 USCS §§
1395 et seq.].
(vi) Claims-filing period.

84a
Appendix D
Notwithstanding any other time limits
that may exist for filing a claim under
an employer group health plan, the
United States may seek to recover
conditional payments in accordance with
this subparagraph where the request
for payment is submitted to the entity
required or responsible under this
subsection to pay with respect to the
item or service (or any portion thereof)
under a primary plan within the 3-year
period beginning on the date on which
the item or service was furnished.
(vii) Use of website to determine final
conditional reimbursement amount.
(I) Notice to Secretary of expected date
of a settlement, judgment, etc.
In the case of a payment made by the
Secretary pursuant to clause (i) for
items and services provided to the
claimant, the claimant or applicable
plan (as defined in paragraph (8)(F))
may at any time beginning 120 days
before the reasonably expected date
of a settlement, judgment, award, or
other payment, notify the Secretary
t hat a pay ment i s r e a son ably
expected and the expected date of
such payment.

85a
Appendix D
(II) Secretarial 4 providing access to
claims information through a website.
The Secretary shall maintain and
make available to individuals to whom
items and services are furnished
under this title (and to authorized
family or other representatives
recognized under regulations and to
an applicable plan which has obtained
the consent of the individual) access
to information on the claims for
such items and services (including
payment amounts for such claims),
including those claims that relate
to a potential settlement, judgment,
award, or other payment. Such access
shall be provided to an individual,
representative, or plan through a
website that requires a password
to gain access to the information.
The Secretary shall update the
information on claims and payments
on such website in as timely a manner
as possible but not later than 15 days
after the date that payment is made.
Information related to claims and
payments subject to the notice under
subclause (I) shall be maintained and
made available consistent with the
following:
4. So in original.

86a
Appendix D
(aa) The information shall be as
complete as possible and shall
include provider or supplier
name, diagnosis codes (if any),
dates of service, and conditional
payment amounts.
(bb)The information accurately
identif ies those claims and
payments that are related to a
potential settlement, judgment,
award, or other payment to
which the provisions of this
subsection apply.
(cc) The website provides a method
fo r t h e r e c e ip t of s e c u r e
electronic communications with
the individual, representative, or
plan involved.
(dd) T he websit e prov ides t hat
in for mation is t ransmitt ed
from the website in a form that
includes an official time and
date that the information is
transmitted.
(ee) The website shall permit the
individual, representative, or
plan to download a statement
of reimbursement amounts (in

87a
Appendix D
this clause referred to as a
“statement of reimbursement
amount”) on payments for claims
under this title relating to a
potential settlement, judgment,
award, or other payment.
(III) Use of timely web download as basis
for final conditional amount.
If an individual (or other claimant or
applicable plan with the consent of
the individual) obtains a statement
of reimbursement amount from the
website during the protected period
as defined in subclause (V) and
the related settlement, judgment,
award or other payment is made
during such period, then the last
statement of reimbursement amount
that is downloaded during such
period and within 3 business days
before the date of the settlement,
judgment, award, or other payment
shall constitute the final conditional
amount subject to recovery under
clause (ii) related to such settlement,
judgment, award, or other payment.
(IV)Resolution of discrepancies.

88a
Appendix D
If the individual (or authorized
representative) believes there is
a discrepancy with the statement
of reimbu rsement amount , the
Secretary shall provide a timely
process to resolve the discrepancy.
Under such process the individual
(or representative) must provide
doc u ment at ion e x pl a i n i ng t he
discrepancy and a proposal to resolve
such discrepancy. Within 11 business
days after the date of receipt of
such documentation, the Secretary
shall determine whether there is
a reasonable basis to include or
remove claims on the statement of
reimbursement. If the Secretary
does not make such determination
within the 11 business-day period,
then the proposal to resolve the
discrepancy shall be accepted. If the
Secretary determines within such
period that there is not a reasonable
basis to include or remove claims on
the statement of reimbursement,
the proposal shall be rejected. If the
Secretary determines within such
period that there is a reasonable basis
to conclude there is a discrepancy, the
Secretary must respond in a timely
manner by agreeing to the proposal
to resolve the discrepancy or by

89a
Appendix D
providing documentation showing
with good cause why the Secretary
is not agreeing to such proposal and
establishing an alternate discrepancy
resolution. In no case shall the
process under this subclause be
treated as an appeals process or as
establishing a right of appeal for a
statement of reimbursement amount
and there shall be no administrative
or judicial review of the Secretary’s
determinations under this subclause.
(V) Protected period.
I n s u b c l a u s e ( I I I ), t he t e r m
“protected period” means, with
respect to a settlement, judgment,
award or other payment relating
to an injury or incident, the portion
(if any) of the period beginning on
the date of notice under subclause
(I) with respect to such settlement,
judgment, award, or other payment
that is after the end of a Secretarial
response period beginning on the
date of such notice to the Secretary.
Such Secretarial response period
shall be a period of 65 days, except
that such period may be extended
by the Secretary for a period of an
additional 30 days if the Secretary
determines that additional time

90a
Appendix D
is required to address claims for
which payment has been made. Such
Secretarial response period shall
be extended and shall not include
any days for any part of which the
Secretary determines (in accordance
with regulations) that there was a
failure in the claims and payment
posting system and the failure
was justified due to exceptional
circumstances (as defined in such
regulations). Such regulations shall
define exceptional circumstances in
a manner so that not more than 1
percent of the repayment obligations
under this subclause would qualify as
exceptional circumstances.
(VI)Effective date.
The Secretary shall promulgate final
regulations to carry out this clause
not later than 9 months after the
date of the enactment of this clause
[enacted Jan. 10, 2013].
(VII) We b s i t e i n c l u d i n g s u c c e s s o r
technology.
In this clause, the term “website”
includes any successor technology.

91a
Appendix D
(viii)Right of appeal for secondary payer
determinations relating to liability
insurance (including self-insurance),
no fau lt i nsu ra nce, a nd workers’
compensation laws and plans.
T he S e c r et a r y sh a l l pr omu lg at e
regulations establishing a right of appeal
and appeals process, with respect to any
determination under this subsection for
a payment made under this title for an
item or service for which the Secretary is
seeking to recover conditional payments
from an applicable plan (as defined in
paragraph (8)(F)) that is a primary
plan under subsection (A)(ii)5 [subpara.
(A)], under which the applicable plan
involved, or an attorney, agent, or third
party administrator on behalf of such
plan, may appeal such determination.
The individual furnished such an item
or service shall be notified of the plan’s
intent to appeal such determination[.] 6
(C) Treatment of questionnaires. The Secretary
may not fail to make pay ment under
subparagraph (A) solely on the ground
that an individual failed to complete a
questionnaire concerning the existence of a
5. So in original. Probably should be “subparagraph (A)”.
6. So in original. Probably should be followed by a period.

92a
Appendix D
primary plan.
(3) Enforcement.
(A) Private cause of action.
There is established a private cause of
action for damages (which shall be in an
amount double the amount other w ise
provided) in the case of a primary plan which
fails to provide for primary payment (or
appropriate reimbursement) in accordance
with paragraphs (1) and (2)(A).
(B) Reference to excise tax with respect to
nonconforming group health plans.
For provision imposing an excise tax with
respect to nonconforming group health
plans, see section 5000 of the Internal
Revenue Code of 1986 [26 USCS § 5000].
(C) Prohibition of financial incentives not to
enroll in a group health plan or a large group
health plan.
It is unlawful for an employer or other entity
to offer any financial or other incentive for
an individual entitled to benefits under this
title [42 USCS §§ 1395 et seq.] not to enroll
(or to terminate enrollment) under a group
health plan or a large group health plan

93a
Appendix D
which would (in the case of such enrollment)
be a primary plan (as defined in paragraph
(2)(A)). Any entity that violates the previous
sentence is subject to a civil money penalty of
not to exceed $5,000 for each such violation.
The provisions of section 1128A [42 USCS §
1320a-7a] (other than subsections (a) and (b))
shall apply to a civil money penalty under
the previous sentence in the same manner
as such provisions apply to a penalty or
proceeding under section 1128A(a) [42 USCS
§ 1320a-7a(a)].
(4) Coordination of benefits.
Where payment for an item or service by a
primary plan is less than the amount of the
charge for such item or service and is not payment
in full, payment may be made under this title
[42 USCS §§ 1395 et seq.] (without regard to
deductibles and coinsurance under this title [42
USCS §§ 1395 et seq.]) for the remainder of such
charge, but—
(A) payment under this title [42 USCS §§ 1395 et
seq.] may not exceed an amount which would
be payable under this title [42 USCS §§ 1395
et seq.] for such item or service if paragraph
(2)(A) did not apply; and
(B) payment under this title [42 USCS §§ 1395
et seq.], when combined with the amount

94a
Appendix D
payable under the primary plan, may not
exceed—
(i) in the case of an item or service payment
for which is determined under this title
[42 USCS §§ 1395 et seq.] on the basis
of reasonable cost (or other cost-related
basis) or under section 1886 [42 USCS
§ 1395ww], the amount which would
be payable under this title [42 USCS
§§ 1395 et seq.] on such basis, and
(ii) in the case of an item or service for which
payment is authorized under this title
[42 USCS §§ 1395 et seq.] on another
basis—
(I) the amount which would be payable
under the primary plan (without
regard to deductibles and coinsurance
under such plan), or
(II) the reasonable charge or other
amount which would be payable
under this title [42 USCS §§ 1395 et
seq.] (without regard to deductibles
and coinsurance under this title [42
USCS §§ 1395 et seq.]),
whichever is greater.
(5) Identification of secondary payer situations.

95a
Appendix D
(A) Requesting matching information.
(i) Commissioner of Social Security.
The Commissioner of Social Security
shall, not less often than annually,
transmit to the Secretary of the Treasury
a list of the names and TINs of medicare
beneficiaries (as defined in section
6103(1)(12) of the Internal Revenue
Code of 1986 [26 USCS § 6103(l)(12)])
and request that the Secretary disclose
to the Commissioner the information
described in subparagraph (A) of such
section.
(ii) Administrator.
The Administrator of the Centers
for Medicare & Medicaid Ser vices
shall request, not less often than
annually, the Commissioner of the Social
Security Administration to disclose
to the Administrator the information
described in subparagraph (B) of section
6103(l)(12) of the Internal Revenue Code
of 1986 [26 USCS § 6103(l)(12)(B)].
(B) Disclosure to fiscal intermediaries and carriers.
In addition to any other information provided
under this title [42 USCS §§ 1395 et seq.] to fiscal
intermediaries and carriers, the Administrator
shall disclose to such intermediaries and carriers

96a
Appendix D
(or to such a single intermediary or carrier as
the Secretary may designate) the information
received under subparagraph (A) for purposes
of carrying out this subsection.
(C) Contacting employers.
(i) In general.
With respect to each individual (in
this subparagraph referred to as an
“employee”) who was fur nished a
written statement under section 6051
of the Internal Revenue Code of 1986
[26 USCS § 6051] by a qualified employer
(as defined in section 6103(l)(12)(E)(iii)
of such Code [26 USCS § 6103(l)(12)(E)
(iii)]), as disclosed under subparagraph
(B), the appropriate fiscal intermediary
or carrier shall contact the employer in
order to determine during what period
the employee or employee’s spouse may
be (or have been) covered under a group
health plan of the employer and the
nature of the coverage that is or was
provided under the plan (including the
name, address, and identifying number
of the plan).
(ii) Employer response.
Within 30 days of the date of receipt of

97a
Appendix D
the inquiry, the employer shall notify
the intermediary or carrier making
the inquiry as to the determinations
described in clause (i). An employer (other
than a Federal or other governmental
entity) who willfully or repeatedly
fails to provide timely and accurate
notice in accordance with the previous
sentence shall be subject to a civil money
penalty of not to exceed $1,000 for each
individual with respect to which such
an inquiry is made. The provisions of
section 1128A [42 USCS § 1320a-7a]
(other than subsections (a) and (b)) shall
apply to a civil money penalty under the
previous sentence in the same manner
as such provisions apply to a penalty or
proceeding under section 1128A(a) [42
USCS § 1320a-7a(a)].
(D) Obtaining information from beneficiaries.
Before an individual applies for benefits under
part A [42 USCS §§ 1395c et seq.] or enrolls
under part B [42 USCS §§ 1395j et seq.],
the Administrator shall mail the individual
a questionnaire to obtain information on
whether the individual is covered under a
primary plan and the nature of the coverage
provided under the plan, including the name,
address, and identifying number of the plan.
(E) End date.

98a
Appendix D
The provisions of this paragraph shall not
apply to information required to be provided
on or after July 1, 2016.
(6) Screening requirements for providers and
suppliers.
(A) In general.
Notwithstanding any other provision of this
title [42 USCS §§ 1395 et seq.], no payment
may be made for any item or ser vice
furnished under part B [42 USCS §§ 1395j
et seq.] unless the entity furnishing such
item or service completes (to the best of its
knowledge and on the basis of information
obtained from the individual to whom the
item or service is furnished) the portion of
the claim form relating to the availability of
other health benefit plans.
(B) Penalties. An entity that knowingly, willfully,
and repeatedly fails to complete a claim form
in accordance with subparagraph (A) or
provides inaccurate information relating to
the availability of other health benefit plans
on a claim form under such subparagraph
shall be subject to a civil money penalty of
not to exceed $2,000 for each such incident.
The provisions of section 1128A [42 USCS
§ 1320a-7a] (other than subsections (a) and
(b)) shall apply to a civil money penalty under

99a
Appendix D
the previous sentence in the same manner
as such provisions apply to a penalty or
proceeding under section 1128A(a) [42 USCS
§ 1320a-7a(a)].
(7) Required submission of information by group
health plans.
(A) Requirement.
On and after the first day of the first calendar
quarter beginning after the date that is
1 year after the date of the enactment of
this paragraph [enacted Dec. 29, 2007],
an entity serving as an insurer or third
party administrator for a group health
plan, as defined in paragraph (1)(A)(v), and,
in the case of a group health plan that is
self-insured and self-administered, a plan
administrator or fiduciary, shall—
(i) secure from the plan sponsor and plan
participants such information as the
Secretary shall specify for the purpose
of identifying situations where the group
health plan is or has been—
(I) a primary plan to the program under
this title; or
(II) for calendar quarters beginning on
or after January 1, 2020, a primary

100a
Appendix D
payer with respect to benefits relating
to prescription drug coverage under
part D; and
(ii) submit such information to the Secretary
i n a for m a nd ma nner (i nclud i ng
frequency) specified by the Secretary.
(B) Enforcement.
(i) In general.
An entity, a plan administrator, or a
fiduciary described in subparagraph (A)
that fails to comply with the requirements
under such subparagraph shall be
subject to a civil money penalty of $1,000
for each day of noncompliance for each
individual for which the information
u nder such subpa rag raph shou ld
have been submitted. The provisions
of subsections (e) and (k) of section
1128A [42 USCS § 1320a-7a] shall
apply to a civil money penalty under
the previous sentence in the same
manner as such provisions apply to a
penalty or proceeding under section
1128A(a) [42 USCS § 1320a-7a(a)]. A civil
money penalty under this clause shall
be in addition to any other penalties
prescribed by law and in addition to any
Medicare secondary payer claim under

101a
Appendix D
this title with respect to an individual.
(ii) Deposit of amounts collected.
Any amounts collected pursuant to
clause (i) shall be deposited in the
Federal Hospital Insurance Trust Fund
under section 1817 [42 USCS § 1395i].
(C) Sharing of information.
Notwithstanding any other provision of law,
under terms and conditions established by
the Secretary, the Secretary—
(i) shall share information on entitlement
under Part A [42 USCS §§ 1395c et seq.]
and enrollment under Part B under
this title [42 USCS §§ 1395j et seq.]
with entities, plan administrators, and
fiduciaries described in subparagraph
(A);
(ii) may share the entitlement and enrollment
information described in clause (i) with
entities and persons not described in
such clause; and
(iii) may share information collected under
this paragraph as necessary for purposes
of the proper coordination of benefits.

102a
Appendix D
(D) Implementation. Notw ithstanding any
other provision of law, the Secretary may
implement this paragraph by program
instruction or otherwise.
(8) Required submission of information by or on
behalf of liability insurance (including selfinsurance), no fault insurance, and workers’
compensation laws and plans.
(A) Requirement.
On and after the first day of the first calendar
quarter beginning after the date that is 18
months after the date of the enactment of
this paragraph [enacted Dec. 29, 2007], an
applicable plan shall—
(i) determine whether a claimant (including
an individual whose claim is unresolved)
is entitled to benefits under the program
under this title [42 USCS §§ 1395 et seq.]
on any basis; and
(ii) if the claimant is determined to be
so entitled, submit the information
described in subparagraph (B) with
respect to the claimant to the Secretary
i n a for m a nd ma nner (i nclud i ng
frequency) specified by the Secretary.
(B) Required information.

103a
Appendix D
T h e i n fo r m a t i o n d e s c r i b e d i n t h i s
subparagraph is—
(i) the identity of the claimant for which the
determination under subparagraph (A)
was made; and
(ii) such other information as the Secretary
shall specify in order to enable the
Secretary to make an appropriate
determination concerning coordination
of benefits, including any applicable
recovery claim.
Not later than 18 months after the date of
enactment of this sentence [enacted Jan.
10, 2013], the Secretary shall modify the
reporting requirements under this paragraph
so that an applicable plan in complying
with such requirements is permitted but
not required to access or report to the
Secretary beneficiary social security account
numbers or health identification claim
numbers, except that the deadline for such
modification shall be extended by one or
more periods (specified by the Secretary)
of up to 1 year each if the Secretary notifies
the committees of jurisdiction of the House
of Representatives and of the Senate that
the prior deadline for such modification,
without such extension, threatens patient
privacy or the integrity of the secondary

104a
Appendix D
payer program under this subsection. Any
such deadline extension notice shall include
information on the progress being made
in implementing such modification and the
anticipated implementation date for such
modification.
(C) Timing.
Information shall be submitted under
subparagraph (A)(ii) within a time specified
by the Secretary after the claim is resolved
through a settlement, judgment, award, or
other payment (regardless of whether or
not there is a determination or admission of
liability).
(D) Claimant. For purposes of subparagraph (A),
the term “claimant” includes—
(i) an individual filing a claim directly
against the applicable plan; and
(ii) an individual filing a claim against an
individual or entity insured or covered
by the applicable plan.
(E) Enforcement.
(i) In general.

105a
Appendix D
A n appl ic able pl a n t h at fa i l s t o
comply with the requirements under
subparagraph (A) with respect to any
claimant may be subject to a civil money
penalty of up to $1,000 for each day of
noncompliance with respect to each
claimant. The provisions of subsections
(e) and (k) of section 1128A [42 USCS
§ 1320a-7a] shall apply to a civil money
penalty under the previous sentence
in the same manner as such provisions
apply to a penalty or proceeding under
section 1128A(a) [42 USCS § 1320a-7a(a)].
A civil money penalty under this clause
shall be in addition to any other penalties
prescribed by law and in addition to any
Medicare secondary payer claim under
this title [42 USCS §§ 1395 et seq.] with
respect to an individual.
(ii) Deposit of amounts collected.
Any amounts collected pursuant to
clause (i) shall be deposited in the
Federal Hospital Insurance Trust Fund.
(F) Applicable plan.
In this paragraph, the term “applicable
plan” means the following laws, plans, or
other arrangements, including the fiduciary
or administrator for such law, plan, or
arrangement:

106a
Appendix D
(i) Liability insurance (including selfinsurance).
(ii) No fault insurance.
(iii) Workers’ compensation laws or plans.
(G) Sharing of information.
The Secretary may share information
collected under this paragraph as necessary
for purposes of the proper coordination of
benefits.
(H) Implementation.
Notwithstanding any other provision of law,
the Secretary may implement this paragraph
by program instruction or otherwise.
(I) Regulations.
Not later than 60 days after the date of the
enactment of this subparagraph [enacted
Jan. 10, 2013], the Secretary shall publish
a notice in the Federal Register soliciting
proposals, which will be accepted during
a 60-day period, for the specification of
practices for which sanctions w ill and
will not be imposed under subparagraph
(E), including not imposing sanctions for
good faith efforts to identify a beneficiary

107a
Appendix D
pursuant to this parag raph under an
applicable entity responsible for reporting
information. After considering the proposals
so submitted, the Secretary, in consultation
with the Attorney General, shall publish in
the Federal Register, including a 60-day
period for comment, proposed specified
practices for which such sanctions will
and will not be imposed. After considering
any public comments received during such
period, the Secretary shall issue final rules
specifying such practices.
(9) Exception.
(A) In general.
Clause (ii) of paragraph (2)(B) and any
reporting required by paragraph (8) shall
not apply with respect to any settlement,
judgment, award, or other payment by
an applicable plan arising from liability
insurance (including self-insurance) and from
alleged physical trauma-based incidents
(excluding alleged ingestion, implantation, or
exposure cases) constituting a total payment
obligation to a claimant of not more than the
single threshold amount calculated by the
Secretary under subparagraph (B) for the
year involved.
(B) Annual computation of threshold.

108a
Appendix D
(i) In general.
Not later than November 15 before
each year, the Secretary shall calculate
and publish a single threshold amount
for settlements, judgments, awards, or
other payments for obligations arising
from liability insurance (including
self-insurance) and for alleged physical
trauma-based incidents (excluding
alleged ingestion, implantation, or
exposure cases) subject to this section
for that year. The annual single threshold
amount for 2014 shall be set such that
the estimated average amount to be
credited to the Medicare trust funds of
collections of conditional payments from
such settlements, judgments, awards,
or other payments arising from liability
insurance (including self-insurance) and
for such alleged incidents subject to this
section shall equal the estimated cost of
collection incurred by the United States
(including payments made to contractors)
for a conditional payment arising from
liability insurance (including selfinsurance) and for such alleged incidents
subject to this section for the year.
At the time of calculating, but before
publishing, the single threshold amount
for a year, the Secretary shall inform,
and seek review of, the Comptroller

109a
Appendix D
General of the United States with regard
to such amount.
(ii) Publication. The Secretary shall include,
as part of such publication for a year—
(I) the estimated cost of collection
incur red by the United States
(i nc lud i ng p ay ment s m a de t o
contractors) for a conditional payment
arising from liability insurance
(including self-insurance) and for
such alleged incidents; and
(II) a summary of the methodolog y
and data used by the Secretary in
computing such threshold amount
and such cost of collection.
(C) Exclusion of ongoing expenses.
For purposes of this paragraph and with
respect to a settlement, judgment, award,
or other payment not otherwise addressed
in clause (ii) of paragraph (2)(B) that
includes ongoing responsibility for medical
payments (excluding settlements, judgments,
awards, or other payments made by a
workers’ compensation law or plan or no fault
insurance), the amount utilized for calculation
of the threshold described in subparagraph
(A) shall include only the cumulative value of

110a
Appendix D
the medical payments made under this title
[42 USCS §§ 1395 et seq.].
(D) Report to Congress.
Not later than November 15 before each
year, the Secretary shall submit to the
Congress a report on the single threshold
amount for settlements, judgments, awards,
or other payments for conditional payment
obligations arising from liability insurance
(including self-insurance) and alleged
incidents described in subparagraph (A)
for that year and on the establishment and
application of similar thresholds for such
payments for conditional payment obligations
arising from worker compensation cases and
from no fault insurance cases subject to this
section for the year. For each such report,
the Secretary shall—
(i) calculate the threshold amount by
using the methodology applicable to
certain liability claims described in
subparagraph (B); and
(ii) include a summary of the methodology
and data used in calculating each
threshold amount and the amount
of estimated savings under this title
achieved by the Secretary implementing
each such threshold.

111a
Appendix D
(c) Drug products.
No payment may be made under part B [42 USCS §§
1395j et seq.] for any expenses incurred for—
(1) a drug product—
(A) which is described in section 107(c)(3) of the
Drug Amendments of 1962 [21 USCS § 321
note],
(B) w h ic h m ay b e d i sp en s e d on ly up on
prescription,
(C) for which the Secretary has issued a notice
of an opportunity for a hearing under
subsection (e) of section 505 of the Federal
Food, Drug, and Cosmetic Act [21 USCS §
355(e)] on a proposed order of the Secretary
to withdraw approval of an application
for such drug product under such section
because the Secretary has determined
that the drug is less than effective for all
conditions of use prescribed, recommended,
or suggested in its labeling, and
(D) for which the Secretary has not determined
there is a compelling justification for its
medical need; and
(2) any other drug product—

112a
Appendix D
(A) which is identical, related, or similar (as
determined in accordance with section 310.6
of title 21 of the Code of Federal Regulations)
to a drug product described in paragraph (1),
and
(B) for which the Secretary has not determined
there is a compelling justification for its
medical need,
until such time as the Secretary withdraws
such proposed order.
(d) Items or services provided for emergency medical
conditions.
For purposes of subsection (a)(1)(A), in the case of
any item or service that is required to be provided
pursuant to section 1867 [42 USCS § 1395dd] to an
individual who is entitled to benefits under this title [42
USCS §§ 1395 et seq.], determinations as to whether
the item or service is reasonable and necessary shall
be made on the basis of the information available to
the treating physician or practitioner (including the
patient’s presenting symptoms or complaint) at the
time the item or service was ordered or furnished
by the physician or practitioner (and not on the
patient’s principal diagnosis). When making such
determinations with respect to such an item or service,
the Secretary shall not consider the frequency with
which the item or service was provided to the patient
before or after the time of the admission or visit.

113a
Appendix D
(e) Item or service by excluded individual or entity or
at direction of excluded physician; limitation of
liability of beneficiaries with respect to services
furnished by excluded individuals and entities.
(1) No payment may be made under this title [42
USCS §§ 1395 et seq.] with respect to any item or
service (other than an emergency item or service,
not including items or services furnished in an
emergency room of a hospital) furnished—
(A) by an individual or entity during the period
when such individual or entity is excluded
pursuant to section 1128, 1128A, 1156 or
1842(j)(2) [42 USCS § 1320a-7, 1320a-7a,
1320c-5, or 1395u(j)(2)] from participation
in the program under this title [42 USCS
§§ 1395 et seq.]; or
(B) at the medical direction or on the prescription
of a physician during the period when he is
excluded pursuant to section 1128, 1128A,
1156 or 1842(j)(2) [42 USCS § 1320a-7, 1320a7a, 1320c-5, or 1395u(j)(2)] from participation
in the program under this title [42 USCS
§§ 1395 et seq.] and when the person
furnishing such item or service knew or
had reason to know of the exclusion (after
a reasonable time period after reasonable
notice has been furnished to the person).
(2) Where an individual eligible for benefits under
this title [42 USCS §§ 1395 et seq.] submits a claim

114a
Appendix D
for payment for items or services furnished by an
individual or entity excluded from participation in
the programs under this title [42 USCS §§ 1395 et
seq.], pursuant to section 1128, 1128A, 1156, 1160
[42 USCS § 1320a-7, 1320a-7a, 1320c-5, 1320c9] (as in effect on September 2, 1982), 1842(j)
(2), 1862(d) [42 USCS § 1395u(j)(2), 1395y(d)]
(as in effect on the date of the enactment of the
Medicare and Medicaid Patient and Program
Protection Act of 1987 [enacted Aug. 18, 1987]),
or 1866 [42 USCS § 1395cc], and such beneficiary
did not know or have reason to know that such
individual or entity was so excluded, then, to the
extent permitted by this title [42 USCS §§ 1395
et seq.], and notwithstanding such exclusion,
payment shall be made for such items or services.
In each such case the Secretary shall notify the
beneficiary of the exclusion of the individual or
entity furnishing the items or services. Payment
shall not be made for items or services furnished
by an excluded individual or entity to a beneficiary
after a reasonable time (as determined by the
Secretary in regulations) after the Secretary has
notified the beneficiary of the exclusion of that
individual or entity.
(f) Utilization guidelines for provision of home health
services.
The Secretary shall establish utilization guidelines for
the determination of whether or not payment may be
made, consistent with paragraph (1)(A) of subsection

115a
Appendix D
(a), under part A or part B [42 USCS §§ 1395c et seq.
or 1395j et seq.] for expenses incurred with respect
to the provision of home health services, and shall
provide for the implementation of such guidelines
through a process of selective postpayment coverage
review by intermediaries or otherwise.
(g) Contracts with quality improvement organizations.
The Secretary shall, in making the determinations
under paragraphs (1) and (9) of subsection (a), and
for the purposes of promoting the effective, efficient,
and economical delivery of health care services, and
of promoting the quality of services of the type for
which payment may be made under this title [42 USCS
§§ 1395 et seq.], enter into contracts with quality
improvement organizations pursuant to part B of title
XI of this Act [42 USCS §§ 1320c et seq.].
(h) Waiver of electronic submission of claims.
(1) The Secretary—
(A) shall waive the application of subsection (a)
(22) in cases in which—
(i) there is no method available for the
submission of claims in an electronic
form; or
(ii) the entity submitting the claim is a small
provider of services or supplier; and

116a
Appendix D
(B) may waive the application of such subsection
in such unusual cases as the Secretary finds
appropriate.
(2) For purposes of this subsection, the term “small
provider of services or supplier” means—
(A) a provider of services with fewer than 25
full-time equivalent employees; or
(B) a physician, practitioner, facility, or supplier
(other than provider of services) with fewer
than 10 full-time equivalent employees.
(i) Awards and contracts for original research and
experimentation of new and existing medical
procedures; conditions.
In order to supplement the activities of the Medicare
Payment Advisory Commission under section
1886(e) [42 USCS § 1395ww(e)] in assessing the
safety, efficacy, and cost-effectiveness of new and
existing medical procedures, the Secretary may
carry out, or award grants or contracts for, original
research and experimentation of the type described
in clause (ii) of section 1886(e)(6)(E) [42 USCS
§ 1395ww(e)(6)(E)(ii)] with respect to such a procedure
if the Secretary finds that—
(1) such procedure is not of sufficient
commercial value to justify research
and experimentation by a commercial
organization;

117a
Appendix D
(2) research and experimentation with
respect to such procedure is not of
a type that may appropriately be
carried out by an institute, division,
or bureau of the National Institutes
of Health; and
(3) such procedure has the potential to be
more cost-effective in the treatment
of a condition than procedures
currently in use with respect to such
condition.
(j) Nonvoting members and experts.
(1) Any advisory committee appointed to advise
the Secretar y on matters relating to the
interpretation, application, or implementation of
subsection (a)(1) shall assure the full participation
of a nonvoting member in the deliberations of
the advisory committee, and shall provide such
nonvoting member access to all information and
data made available to voting members of the
advisory committee, other than information
that—
(A) is exempt from disclosure pursuant to
subsection (a) of section 552 of title 5, United
States Code, by reason of subsection (b)(4) of
such section (relating to trade secrets); or
(B) the Secretary determines would present a
conflict of interest relating to such nonvoting
member.

118a
Appendix D
(2) If an advisory committee described in paragraph
(1) organizes into panels of experts according
to types of items or services considered by the
advisory committee, any such panel of experts
may report any recommendation with respect to
such items or services directly to the Secretary
without the prior approval of the advisory
committee or an executive committee thereof.
(k) Dental benefits under group health plans.
(1) Subject to paragraph (2), a group health plan (as
defined in subsection (a)(1)(A)(v)7 [(b)(1)(A)(v)])
providing supplemental or secondary coverage
to individuals also entitled to services under
this title shall not require a medicare claims
determination under this title for dental benefits
specifically excluded under subsection (a)(12) as
a condition of making a claims determination for
such benefits under the group health plan.
(2) A group health plan may require a claims
determination under this title in cases involving
or appearing to involve inpatient dental hospital
services or dental services expressly covered
under this title pursuant to actions taken by the
Secretary.
(l) National and local coverage determination process.

7. So in original. Probably should be “(b)(1)(A)(v)”.

119a
Appendix D
(1) Factors and evidence used in making national
coverage determinations.
The Secretary shall make available to the
public the factors considered in making national
coverage determinations of whether an item
or service is reasonable and necessary. The
Secretary shall develop guidance documents to
carry out this paragraph in a manner similar to
the development of guidance documents under
section 701(h) of the Federal Food, Drug, and
Cosmetic Act (21 U.S.C. 371(h)).
(2) Timeframe for decisions on requests for national
coverage determinations.
In the case of a request for a national coverage
determination that—
(A) does not require a technology assessment
from an outside entity or deliberation from
the Medicare Coverage Advisory Committee,
the decision on the request shall be made not
later than 6 months after the date of the
request; or
(B) requires such an assessment or deliberation
and in which a clinical trial is not requested,
the decision on the request shall be made
not later than 9 months after the date of the
request.

120a
Appendix D
(3) Process for public comment in national coverage
determinations.
(A) Period for proposed decision.
Not later than the end of the 6-month period
(or 9-month period for requests described in
paragraph (2)(B)) that begins on the date a
request for a national coverage determination
is made, the Secretary shall make a draft of
proposed decision on the request available to
the public through the Internet website of the
Centers for Medicare & Medicaid Services
or other appropriate means.
(B) 30-day period for public comment.
Beginning on the date the Secretary makes
a draft of the proposed decision available
under subparagraph (A), the Secretary shall
provide a 30-day period for public comment
on such draft.
(C) 60-day period for final decision.
Not later than 60 days after the conclusion
of the 30-day period referred to under
subparagraph (B), the Secretary shall—
(i) make a final decision on the request;

121a
Appendix D
(ii) include in such final decision summaries
of the public comments received and
responses to such comments;
(iii) make available to the public the clinical
evidence and other data used in making
such a decision when the decision
differs from the recommendations
of the Medicare Coverage Advisory
Committee; and
(iv) in the case of a final decision under clause
(i) to grant the request for the national
coverage determination, the Secretary
shall assign a temporary or permanent
code (whether existing or unclassified)
and implement the coding change.
(4) Consultation with outside experts in certain
national coverage determinations.
With respect to a request for a national coverage
determination for which there is not a review by
the Medicare Coverage Advisory Committee, the
Secretary shall consult with appropriate outside
clinical experts.
(5) Local coverage determination process.
(A) Plan to promote consistency of coverage
determinations.

122a
Appendix D
The Secretary shall develop a plan to
evaluate new local coverage determinations
to determine which determinations should
be adopted nationally and to what extent
greater consistency can be achieved among
local coverage determinations.
(B) Consultation.
The Secretary shall require the fiscal
intermediaries or carriers providing services
within the same area to consult on all new
local coverage determinations within the
area.
(C) Dissemination of information.
The Secretary should serve as a center to
disseminate information on local coverage
determinations among fiscal intermediaries
and carriers to reduce duplication of effort.
(D) Local coverage determinations.
The Secretary shall require each Medicare
administrative contractor that develops
a local coverage determination to make
available on the Internet website of such
contractor and on the Medicare Internet
website, at least 45 days before the effective
date of such determination, the following
information:

123a
Appendix D
(i) Such determination in its entirety.
(ii) W h e r e a n d w h e n t h e p r o p o s e d
determination was first made public.
(iii) Hyperlinks to the proposed determination
and a response to comments submitted
to the contractor with respect to such
proposed determination.
(iv) A summar y of evidence that was
considered by the contractor during the
development of such determination and a
list of the sources of such evidence.
(v) An explanation of the rationale that
supports such determination.
(6) National and local coverage determination
defined.
For purposes of this subsection—
(A) National coverage determination.
The term “national coverage determination”
means a determination by the Secretary with
respect to whether or not a particular item
or service is covered nationally under this
title.
(B) Local coverage determination.

124a
Appendix D
The term “local coverage determination” has
the meaning given that in section 1869(f)(2)
(B) [42 USCS § 1395ff(f)(2)(B)].
(m) Coverage of routine costs associated with certain
clinical trials of category A devices.
(1) In general.
In the case of an individual entitled to benefits
under part A [42 USCS §§ 1395c et seq.], or
enrolled under part B [42 USCS §§ 1395j et
seq.], or both who participates in a category A
clinical trial, the Secretary shall not exclude
under subsection (a)(1) payment for coverage of
routine costs of care (as defined by the Secretary)
furnished to such individual in the trial.
(2) Category A clinical trial.
For purposes of paragraph (1), a “category A
clinical trial” means a trial of a medical device
if—
(A) the trial is of an experimental/investigational
(category A) medical device (as defined in
regulations under section 405.201(b) of title
42, Code of Federal Regulations (as in effect
as of September 1, 2003));
(B) the trial meets criteria established by the
Secretary to ensure that the trial conforms to

125a
Appendix D
appropriate scientific and ethical standards;
and
(C) in the case of a trial initiated before January 1,
2010, the device involved in the trial has been
determined by the Secretary to be intended
for use in the diagnosis, monitoring, or
treatment of an immediately life-threatening
disease or condition.
(n) Requirement of a surety bond for certain providers
of services and suppliers.
(1) In general.
The Secretary may require a provider of services
or supplier described in paragraph (2) to provide
the Secretary on a continuing basis with a surety
bond in a form specified by the Secretary in an
amount (not less than $50,000) that the Secretary
determines is commensurate with the volume of
the billing of the provider of services or supplier.
The Secretary may waive the requirement of a
bond under the preceding sentence in the case of
a provider of services or supplier that provides a
comparable surety bond under State law.
(2) Provider of services or supplier described.
A provider of services or supplier described in this
paragraph is a provider of services or supplier the
Secretary determines appropriate based on the

126a
Appendix D
level of risk involved with respect to the provider
of services or supplier, and consistent with the
surety bond requirements under sections 1834(a)
(16)(B) and 1861(o)(7)(C) [42 USCS §§ 1395m(a)
(16)(B) and 1395x(o)(7)(C)].
(o) Suspension of payments pending investigation of
credible allegations of fraud.
(1) In general.
The Secretary may suspend payments to a
provider of services or supplier under this title
pending an investigation of a credible allegation
of fraud against the provider of services or
supplier, unless the Secretary determines there
is good cause not to suspend such payments.
(2) Consultation.
The Secretary shall consult with the Inspector
General of the Department of Health and Human
Services in determining whether there is a
credible allegation of fraud against a provider of
services or supplier.
(3) Promulgation of regulations.
The Secretary shall promulgate regulations to
carry out this subsection, section 1860D-12(b)(7)
[42 USCS § 1395w-112(b)(7)] (including as applied
pursuant to section 1857(f)(3)(D) [42 USCS

127a
Appendix D
§ 1395w-27(f)(3)(D)]), and section 1903(i)(2)(C) [42
USCS § 1396b(i)(2)(C)].
(4) Credible allegation of fraud.
In ca r r y i ng out this subsection, section
1860D-12(b)(7) [42 USCS § 1395w-112(b)(7)]
(including as applied pursuant to section 1857(f)
(3)(D) [42 USCS § 1395w-27(f)(3)(D)]), and section
1903(i)(2)(C) [42 USCS § 1396b(i)(2)(C)], a fraud
hotline tip (as defined by the Secretary) without
further evidence shall not be treated as sufficient
evidence for a credible allegation of fraud.

128a
Appendix D
42 CFR 412.3
§ 412.3 Admissions.
(a) For purposes of payment under Medicare Part A,
an individual is considered an inpatient of a hospital,
including a critical access hospital, if formally
admitted as an inpatient pursuant to an order for
inpatient admission by a physician or other qualified
practitioner in accordance with this section and
§§ 482.24(c), 482.12(c), and 485.638(a)(4)(iii) of this
chapter for a critical access hospital. In addition,
inpatient rehabilitation facilities also must adhere to
the admission requirements specified in § 412.622.
(b) The order must be furnished by a qualified and
licensed practitioner who has admitting privileges
at the hospital as permitted by State law, and who
is knowledgeable about the patient’s hospital course,
medical plan of care, and current condition. The
practitioner may not delegate the decision (order) to
another individual who is not authorized by the State
to admit patients, or has not been granted admitting
privileges applicable to that patient by the hospital’s
medical staff.
(c) The physician order must be furnished at or before
the time of the inpatient admission.
(d)(1)Except as specified in paragraphs (d)(2) and (3)
of this section, an inpatient admission is generally
appropriate for payment under Medicare Part A when

129a
Appendix D
the admitting physician expects the patient to require
hospital care that crosses two midnights.
(i) The expectation of the physician should be based
on such complex medical factors as patient
history and comorbidities, the severity of signs
and symptoms, current medical needs, and the
risk of an adverse event. The factors that lead
to a particular clinical expectation must be
documented in the medical record in order to be
granted consideration.
(ii) If an unforeseen circumstance, such as a
beneficiary’s death or transfer, results in a
shorter beneficiary stay than the physician’s
expectation of at least 2 midnights, the patient
may be considered to be appropriately treated on
an inpatient basis, and payment for an inpatient
hospital stay may be made under Medicare Part
A.
(2) An inpatient admission for a surgical procedure
specified by Medicare as inpatient only under §
419.22(n) of this chapter is generally appropriate for
payment under Medicare Part A, regardless of the
expected duration of care.
(3) Where the admitting physician expects a patient
to require hospital care for only a limited period of
time that does not cross 2 midnights, an inpatient
admission may be appropriate for payment under
Medicare Part A based on the clinical judgment of the

130a
Appendix D
admitting physician and medical record support for
that determination. The physician’s decision should
be based on such complex medical factors as patient
history and comorbidities, the severity of signs and
symptoms, current medical needs, and the risk of an
adverse event. In these cases, the factors that lead
to the decision to admit the patient as an inpatient
must be supported by the medical record in order to
be granted consideration.
(e) [Redesignated as subsection (d) by 79 FR 67030]

